<html>
<title> - OVERSIGHT OF UNITED STATES IMMIGRATION AND CUSTOMS ENFORCEMENT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
     OVERSIGHT OF UNITED STATES IMMIGRATION AND CUSTOMS ENFORCEMENT

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 22, 2016

                               __________

                           Serial No. 114-94

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
         
         
         
         


      Available via the World Wide Web: http://judiciary.house.gov
      
      
      
      
                             _________ 

                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 22-121 PDF                 WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
     
      
      
      
      
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
        
        
        
                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 22, 2016

                                                                   Page

                           OPENING STATEMENTS

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     3

                                WITNESS

The Honorable Sarah Saldana, Director, U.S. Immigration and 
  Customs Enforcement, Department of Homeland Security
  Oral Testimony.................................................     6
  Prepared Statement.............................................     9

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Karen Bass, a Representative in 
  Congress from the State of California, and Member, Committee on 
  the Judiciary..................................................     5
Material submitted by the Honorable Scott Peters, a 
  Representative in Congress from the State of California, and 
  Member, Committee on the Judiciary.............................    56

                                APPENDIX
               Material Submitted for the Hearing Record

Questions for the Record submitted to the Honorable Sarah 
  Saldana, Director, U.S. Immigration and Customs Enforcement, 
  Department of Homeland Security...........................68<greek-l>
                       deg.OFFICIAL HEARING RECORD
      Material Submitted for the Hearing Record but not Reprinted

Material submitted by the Honorable Zoe Lofgren, a Representative in 
    Congress from the State of California, and Member, Committee on the 
    Judiciary. This material is available at the Committee and can also 
    be accessed at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=105348


     OVERSIGHT OF UNITED STATES IMMIGRATION AND CUSTOMS ENFORCEMENT

                              ----------                              


                      THURSDAY, SEPTEMBER 22, 2016

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 10 a.m., in room 
2237, Rayburn House Office Building, the Honorable Bob 
Goodlatte, (Chairman of the Committee) presiding.
    Present: Representatives Goodlatte, Smith, Chabot, Issa, 
King, Franks, Gohmert, Jordan, Chaffetz, Gowdy, Labrador, 
DeSantis, Buck, Ratcliffe, Bishop, Conyers, Lofgren, Jackson 
Lee, Johnson, Chu, Deutch, Bass, DelBene, Cicilline, and 
Peters.
    Staff Present: (Majority) Shelley Husband, Chief of Staff & 
General Counsel; Branden Ritchie, Deputy Chief of Staff & Chief 
Counsel; Zachary Somers, Parliamentarian & General Counsel; 
Tracy Short, Counsel, Subcommittee on Immigration and Border 
Security; (Minority) Perry Apelbaum, Staff Director & Chief 
Counsel; Danielle Brown, Parliamentarian & Chief Legislative 
Counsel; Gary Merson, Chief Immigration Counsel; Maunica 
Sthanki, Immigration Counsel; Micah Bump, Immigration Counsel; 
and Rosalind Jackson, Professional Staff Member.
    Mr. Goodlatte. Good morning. The Judiciary Committee will 
come to order, and without objection, the Chair is authorized 
to declare a recess of the Committee at any time. We welcome 
everyone to this morning's hearing on Oversight of U.S. 
Immigration and Customs Enforcement, and I will begin by 
recognizing myself for an opening statement.
    U.S. Immigration and Customs Enforcement (ICE) is the 
Federal agency that is charged with enforcing the immigration 
laws of this Nation. Its mission statement is to protect 
America from the cross-border crime and illegal immigration 
that threaten national security and public safety. Its website 
boasts enforcement of over 400 statues and touts the agency's 
focus on ``smart immigration enforcement and combating the 
illegal movement of people and goods.''
    This sounds like an agency that is committed to devoting 
every available resource to vigilantly protect the American 
public, yet, under the policies of this President, safety and 
security for Americans appear to be far less important than the 
so-called immigration enforcement priorities, which result in 
hundreds of thousands of unlawfully present and criminal aliens 
remaining in our communities.
    Smart enforcement does not include allowing nearly 370,000 
known, convicted, criminal aliens to walk the streets, and it 
defies common sense to designate removable aliens arrested for 
serious crimes as low priorities because they have not yet been 
convicted. They remain threats to the public despite the lack 
of a conviction.
    Any policy that notifies violators in advance that they 
will not be prosecuted is simply unacceptable. How is that 
smart enforcement when the offenders know there are no 
consequences for their unlawful actions? It only encourages 
similar conduct by others. ICE cannot combat illegal 
immigration by refusing to arrest those who have knowingly 
violated our immigration laws or by releasing over 86,000 
convicted criminal aliens over the last 3 years.
    These are not policies that protect Americans and help 
secure our borders. During the last oversight hearing before 
this Committee on April 14, 2015, Director Saldana testified 
that ``ICE released 30,558 criminal aliens in fiscal year 2014 
and that those aliens had a combined total of 79,059 criminal 
convictions associated with them.''
    The Committee recently learned from a source that the 
number of convictions associated with those aliens increased 
substantially to more than 92,000, and ICE has now admitted 
that it knew of the additional 13,000 convictions at the time 
Director Saldana appeared before the Committee.
    I look forward to hearing the Director's explanation for 
the difference between what she told us then and what was known 
to the agency since the data demonstrates that these criminal 
aliens pose an even greater threat to public safety than was 
represented to the Committee.
    Specifically, there were 17 percent more convictions for 
homicide-related offenses, 22 percent more for robbery, 27 
percent more for sexual assaults, 17 percent more for 
aggravated assaults, and 11 percent more convictions for 
domestic violence assaults. The failure to report this critical 
information raises serious questions about whether ICE 
intentionally distorted the true nature of these threats to 
Congress and the American public.
    For the families of those killed by criminal aliens, those 
like Kate Steinle, Marilyn Farris, Casey Chadwick, Sarah Root, 
and Josh Wilkerson, assurances of smart enforcement ring 
hollow, and sadly, the number of victims continues to increase. 
Also troubling is the fact that despite clear indications that 
ICE's enforcement priorities are placing Americans at greater 
risk, the President's budget request for fiscal year 2017 asks 
for $138 million less to detain and remove aliens next year, 
and worse, last year, ICE gave back $113 million in funds that 
had been specifically appropriated for detention and removal 
purposes.
    Consistent with this policy of non-enforcement, the 
President also requested $23 million less for the Fugitive 
Operations Program in fiscal year 2017. Fugitive Operations 
officers must locate and arrest criminal aliens, often in a 
high-threat environment, after they have been released back 
into the community by sanctuary jurisdictions. With more than 
300 sanctuary jurisdictions nationwide, there are more than 
enough removable criminal aliens to warrant the additional $23 
million in funding for this important enforcement program.
    This Administration's failure to allocate resources to 
critical program areas that directly impact ICE's ability to 
keep criminal aliens off the street belies any assertion that 
public safety is a primary concern. I want to thank Director 
Saldana for appearing here today. I look forward to your 
testimony and to your responses to the questions I have 
outlined, as well as the concerns and questions of other 
Members of this Committee. Thank you very much.
    It is now my pleasure to recognize the Ranking Member of 
the Committee, the gentleman from Michigan, Mr. Conyers, for 
his opening statement.
    Mr. Conyers. Thank you, Chairman Goodlatte, and I begin by 
thanking Director Sarah Saldana for her service and appearing 
before the Committee today. As head of the United States 
Immigration and Customs Enforcement, Director Saldana has one 
of the most challenging jobs in government. With limited 
resources, she must ensure that our immigration statutes are 
enforced, as well as ensure that this is done in a fair, just, 
and balanced way.
    For that reason, the Department of Homeland Security's 
enforcement priorities recognized that millions of unauthorized 
immigrants have been living and working in the United States 
for 5 or 10 years or longer. These men and women are parents of 
United States citizen children; pray at our churches, 
synagogues, mosques, and other houses of worship; and make 
significant contributions to our economy. Their removal is not 
and should not be an enforcement priority.
    We are here today to, first, examine how our immigration 
laws are enforced and how this enforcement affects our 
communities. As we conduct this examination, however, we must 
keep in mind that many of the challenges faced by ICE and 
immigrant communities are a result of Congress's failure to 
pass comprehensive immigration reform. Yet we are now in the 
waning days of the current Congress, which will soon adjourn 
without having a justice failure, even though everyday families 
continue to be separated, and hardworking members of our 
society are forced to live in the shadows.
    Despite all of these challenges, the majority continues to 
focus exclusively on immigration enforcement that would 
criminalize entire communities. The Republic Presidential 
nominee advocates policies based on the abhorrent 1950's 
program, Operation Wetback. If enacted and carried out, the 
ensuing chaos would be a tragedy, rivaling the darkest episodes 
in America's history. Comprehensive immigration reform is the 
only real option to repair our broken immigration system, in my 
opinion.
    Another issue we should consider at this hearing is the 
fact that there is a significant increase in the time non-
criminal asylum seekers are being detained. United Nations High 
Commissioner for Refugees states that the detention of an 
asylum seeker is an exceptional circumstance and should only be 
used for a limited period of time. I agree, and I also 
encourage ICE to use its parole authority to release asylum 
seekers who have passed credible fear screenings or, in the 
alternative, to consider non-custodial forms of alternatives to 
detention.
    I am pleased to see that the Department of Homeland 
Security will be conducting a review of private prison 
policies. I have long been deeply concerned about the use of 
private prison companies, particularly in light of reports of 
serious medical neglect, physical abuse, preventable deaths, 
and other forms of mistreatment. The Department of Justice 
recently decided to end its relationship with private prison 
companies, in part because of abusive treatment of inmates.
    I encourage ICE to follow suit and end its reliance on 
private prisons. Finally, yesterday, DHS announced a change in 
policy for Haitian nationals arriving at our ports of entry. I 
know this is a complex area of the law with no easy answers, 
but deporting Haitians back to a country still reeling from 
both a devastating earthquake and a cholera epidemic caused by 
the United Nations, their own admission, is concerning and 
warrants close oversight. I thank the Chairman for this time, 
and I yield back the balance, if there is any left.
    Mr. Goodlatte. Thank you, Mr. Conyers, and without 
objection, all of the Members' opening statements will be made 
a part of the record.
    [The prepared statement of Ms. Bass follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Mr. Goodlatte. At this time, we will welcome our 
distinguished witness, and if you would please rise, I will 
begin by swearing you in.
    Director Saldana, do you solemnly swear that the testimony 
that you are about to give shall be the truth, the whole truth, 
and nothing but the truth, so help you God?
    Thank you very much.
    Let the record show the witness answered in the 
affirmative.
    Director Saldana was sworn in as the Director of the U.S. 
Immigration and Customs Enforcement on December 23, 2014. Prior 
to her appointment, she was the United States attorney for the 
Northern District of Texas. Previously, she served as an 
assistant district attorney for the Northern District of Texas, 
also serving as the deputy criminal chief in charge of the 
district's Major Fraud and Public Corruption section.
    Director Saldana graduated summa cum laude from Texas A&M 
University and received a J.D. from Southern Methodist 
University. Your entire written statement will be made a part 
of the record, and we ask that you summarize your testimony in 
5 minutes, and welcome.

   TESTIMONY OF THE HONORABLE SARAH SALDANA, DIRECTOR, U.S. 
  IMMIGRATION AND CUSTOMS ENFORCEMENT, DEPARTMENT OF HOMELAND 
                            SECURITY

    Ms. Saldana. Thank you, Mr. Chairman, Ranking Member 
Conyers. If I could have that little bit of time, if Ranking 
Member Conyers had any left, I would ask that you indulge me 
just a little bit over the 5 minutes, if possible.
    Distinguished Members of this Committee, I appreciate the 
opportunity to discuss with you all the important work of ICE 
by providing you an overview of our progress over the past 
year, since the last time that I appeared before this 
distinguished Committee, as well as some challenges, which we 
continue to address.
    There are many Americans who are not familiar with the full 
ambit of what ICE does to promote homeland security and to 
protect our communities. An average day, and I have got a 
banner with this information to remind me just exactly what our 
agency does; in the average day in the life of an ICE special 
agent, an officer, or attorney, results in the arrest of four 
human or sex traffickers--this is every day--7 child predators, 
279 criminal immigrants, and the removal of 645 individuals.
    Each day, personnel from ICE initiate 8 new sensitive 
technology investigations, block 3,055 malware attacks, and 
forensically process more than 17 terabytes--I have no idea 
what that is, but I think it is a lot--of data. I have 
committed significant time and energy to increase engagement 
with the numerous stakeholders through our communities.
    I think everyone here would agree that it is important for 
those of us who serve in the Federal Government for the 
American public, we have got to have collective partnerships 
with local law enforcement agencies, elected officials, 
professional groups, and non-governmental organizations, as 
well as the citizens of those communities.
    Another one of my goals is to ensure that each one of our 
employees has a voice, is mentored, feels empowered, and is 
recognized for his or her contributions to the agency and our 
mission. I believe this year's initial Federal employee survey 
results, which were just announced by the Office of Personnel 
Management on Monday, demonstrate our employee engagement is 
working. This is one of the commitments I made when I was 
nominated, and I was questioned about, how are we going to get 
ICE out of the cellar in terms of employee engagement?
    We had an 11 percent increase, an 11 percent increase in 
global employee satisfaction. ICE-wide results exceeded last 
year's on each and every, I repeat, each and every question in 
the survey, and we had a 6 percent overall increase in 
participation in the survey. I am very proud of this. Perhaps 
the lesser known work of ICE is how we strive to protect our 
Nation's homeland security.
    Under the visa security program, which I have testified 
about before, ICE agents are assigned to diplomatic posts all 
over the world. ICE is the second largest contributor of 
Federal agents to the Joint Terrorism Task Forces across the 
country, led by the FBI. We support and complement counter-
terrorism investigations with ICE's unique immigration and 
trade-based authorities, and we are instrumental in the 
investigations of events such as we saw just this past weekend. 
We also perform critical work combating human smuggling, 
trafficking, child exploitation, and we have a tremendous 
program in the HERO program, which involves wounded warriors 
who assist us in our child exploitation cases.
    To address the challenges of jurisdictions which have 
lessened their cooperation with ICE over the years, we 
implemented last year the Priority Enforcement Program. We got 
the forms out and started this program last summer. We have had 
about a year under our belt, and we have conducted a nationwide 
effort to bring jurisdictions, which were not previously 
operating with our detainers, to do so. Over the past year, we 
have also increased our engagement with recalcitrant countries, 
and I will tell you I, personally, have sent 125 letters to 
foreign leaders.
    I have met with the ambassadors of Guinea and China to work 
on resolution of some of these blocking points that we have in 
repatriating others to their county. Our people face, as you 
said, Chairman, a very tremendous challenge. We have people who 
enter the country and choose to do harm to others. We have 
ever-evolving, every day, our law from our immigration and 
Federal courts, changes one after the other; local law 
sometimes conflict with ours; recalcitrant countries; and then 
we have this tremendous influx of families and children, who 
are fleeing violent conditions in their own countries.
    A lesser workforce would bend, maybe even break, but not at 
ICE. We continue to focus on these issues to try to get some 
resolution. With respect to the private detention issue, 
Ranking Member Conyers, if you should have questions for me, I 
am certainly happy to go into detail about that. You know, of 
course, that Secretary Johnson has asked his advisory committee 
to look at this issue with respect to our detention centers.
    I will say, and I think I have visited with many people, I 
think I may have a date coming up for you, sir, about the 
specifics of this, but we have apples and oranges in the Bureau 
of Prisons, a punitive system as opposed to our administrative, 
civil system we have at ICE.
    Finally, I would like to say there are two legislative 
priorities that I will continue to push until the day they turn 
the lights off on me in January. One of them is an equitable 
pay, a reform system for our officers. They need to be paid, in 
terms of premium pay, equitably, as compared to other Federal 
employees.
    This is a legislative priority for our agency. It is a 
legislative priority for me; same with respect to 
authorization. Mr. Chairman, I think I have mentioned this to 
you personally. ICE needs to be authorized. Thank you so much, 
and I look forward to your questions.
    [The prepared statement of Ms. Saldana follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
   
                               __________
    Mr. Goodlatte. Thank you, Director. We will now proceed 
under the 5-minute rule with questions, and I will begin by 
recognizing myself. A report by the GAO last year found that 
immigration judges have granted asylum to 3,709 aliens whose 
asylum claims were prepared by others who were convicted of 
immigration fraud. Many of the aliens were involved in the 
fraud, and investigators stated that most of the aliens had not 
suffered persecution. None of those cases have been reopened, 
according to the Department of Justice. What action have you 
taken to investigate these cases?
    Ms. Saldana. Are you talking about the IG's enforcement 
[inaudible]?
    Mr. Goodlatte. No, I am talking about a report by the 
General Accounting Office about aliens who made asylum claims 
and were assisted in making those claims by individuals who 
were convicted of immigration fraud.
    Ms. Saldana. Yes, obviously fraud is an area that we are 
[inaudible]. I will tell you, Chairman, that both the Office of 
General Counsel and Homeland Security and our almost 900-plus 
attorneys within Immigrations and Customs Enforcement----
    Mr. Conyers. Pull your mic up a little closer, please.
    Mr. Goodlatte. Turn it on.
    Ms. Saldana [continuing]. Have had a tremendous--thank you, 
sir. I have focused their efforts on detection of fraud, and we 
will obviously focus on these 3,000, in particular. We believe 
that----
    Mr. Goodlatte. My question was, what action have you taken 
to investigate those cases?
    Ms. Saldana. In those cases that we have reviewed, we have 
opened matters in order to take a look at them and see the 
facts and circumstances of each case. We will look at each one 
of those.
    Mr. Goodlatte. Have you instructed your ICE attorneys to 
review those cases and file motions to reopen those where fraud 
is suspected?
    Ms. Saldana. Those, sir, and every other, because there are 
more than those, in which we believe there may be a fraud 
aspect that were parts of ongoing investigations.
    Mr. Goodlatte. If your answer is yes, then in how many of 
how those cases were motions filed? There are 3,709 cases. In 
how many of those have your ICE attorneys filed motions to 
revoke or bring into question whether those grants of asylum 
were legitimate?
    Ms. Saldana. I do not have that number directly in front of 
me, but I certainly can get that to you promptly.
    Mr. Goodlatte. How quickly can you get it to us?
    Ms. Saldana. Tomorrow?
    Mr. Goodlatte. That would be wonderful. Have any of the 
asylum grants been rescinded by a judge? Add that to your list 
of questions. On August 29, Secretary Johnson directed the 
Homeland Security Advisory Council to evaluate whether ICE's 
private detention operation should continue. Would not ending 
the use of such facilities adversely impact ICE's ability to 
detain removable aliens, including criminals?
    Ms. Saldana. It would pretty much turn our system upside 
down, sir, because we are almost completely contractor-run, 
with respect to our detention facilities. We would have to 
build detention centers. We would have to hire staff.
    Mr. Goodlatte. Or, conversely, would you not be forced to 
release criminal aliens that would otherwise be detained?
    Ms. Saldana. We will not be releasing any criminal aliens. 
We have been directed specifically by the Secretary that we 
cannot do that.
    Mr. Goodlatte. Congress has mandated that ICE maintain at 
least 34,000 detention beds. Could you meet that statutory 
mandate without private detention facilities?
    Ms. Saldana. No.
    Mr. Goodlatte. And last year you told the Committee that 
ICE released over 30,000 in fiscal year 2014, who had a total 
of 79,059 criminal convictions. Later, we learned that we now 
have more than 92,000 convictions, 13,000 more than originally 
reported. ICE was aware of this larger number before your 
testimony last April, April of 2015. Why was it not reported to 
the Committee that the number was higher then?
    Ms. Saldana. In April, sir?
    Mr. Goodlatte. Yes.
    Ms. Saldana. Chairman, I saw your letter regarding this 
inquiry, and I take very seriously these concerns you have. Let 
me urge you to consider we cannot press a button for data to be 
spewed out, particularly with respect to this criminal release 
data you wanted, that says, as of March 23rd, 2014, these are 
the number of criminal convictions that apply to releases that 
we have had. It is not a pressing of the button. The 
information we provided you was as of March 23, 2015, and that 
number could very well and does, as you know now, increase when 
you run the data again because, in the interim, there may be 
additional convictions. What we did----
    Mr. Goodlatte. Let me ask you this then. Has ICE rearrested 
any of these aliens?
    Ms. Saldana. I have to believe so. Yes, but I cannot give 
you a number right now, Chairman.
    Mr. Goodlatte. How soon could you give us a number?
    Ms. Saldana. That I will have to go back and see. These are 
essentially manual searches when we do something like that on a 
special inquiry like this.
    Mr. Goodlatte. ICE data shows that one or more aliens with 
terrorism convictions were released from ICE custody in fiscal 
year 2015 under the Supreme Court's Zadvydas decision. What 
action did you take in those cases to recommend that Secretary 
Johnson send notice to the State Department to invoke visa 
sanctions against those recalcitrant countries under INA 
Section 243D?
    In other words, you released people because of that Supreme 
Court decision onto our streets. It is almost always because 
other countries have refused to take back people that we have 
attempted to deport, but we have a process whereby visa 
sanctions can be imposed on those countries. Did Secretary 
Johnson send notice to the Department of State to invoke visa 
sanctions against any of the recalcitrant countries that 
refused to take back individuals, particularly individuals who 
were released who have terrorism convictions, of all things? 
What is being done to make sure that the terrorists in our 
custody that should be deported, are indeed, deported to their 
home country?
    Ms. Saldana. Even when we are required to release, 
Chairman, people with criminal records, including concerns 
about terrorism under the Zadvydas decision, we do not just put 
them on the street. We do release them, because we are required 
to, under conditions: reporting conditions, perhaps even a 
monitor. With respect to the visa sanctions issue, I am not 
aware of that having been exercised once to date, although I 
know that the Secretary has under consideration doing so, with 
respect to one or more of these countries.
    Mr. Goodlatte. I have seen no evidence that he has done 
that, and there are provisions that authorize mandatory 
detention for terrorist aliens in the Immigration and 
Nationality Act, Section 236A, and 8 Code of Federal 
Regulations 24114. What actions did you take, or the Secretary 
take, to invoke those provisions to maintain custody of those 
terrorists?
    Ms. Saldana. We have at least done so in one case. We do 
not release someone who we have the ability to detain under the 
mandatory detention provisions. I will assure you that.
    Mr. Goodlatte. But to your knowledge, Secretary Johnson has 
never sent a notice to the Department of State to invoke visa 
sanctions against any country that refuses to take back their 
own citizens who are required, by our laws, to be sent out of 
this country?
    Ms. Saldana. Sir, he has done so once that I am aware of. I 
do not know that we have heard from the Department of State.
    Mr. Goodlatte. How recently was that?
    Ms. Saldana. Well, I know he had it under consideration. It 
has been whispered in my ear that that letter may not have gone 
out yet, but I know he is at least considering it seriously in 
respect to--remind me of the country.
    Voice. Gambia.
    Ms. Saldana. Gambia.
    Mr. Goodlatte. Well, we are into the last months of this 
Presidency and the last months of the Secretary's service. This 
problem is not a new one. It has been going on preceding this 
Administration. Do not you think it is time that the 
Administration stepped up and started enforcing our laws with 
regard to countries that do not cooperate with us?
    Ms. Saldana. I know that the Secretary takes that very 
seriously, and as I say, he is taking under consideration this, 
in particular with this one country. There well may be more.
    Mr. Goodlatte. My time is expired. The Chair recognizes the 
gentleman from Michigan, Mr. Conyers, for his questions.
    Mr. Conyers. Thank you, Chairman. Thank you for being here 
today. I want to talk about the increase in Haitians entering 
the United States through the southwest border. As a result, 
the Department of Homeland Security announced today a change in 
policy toward Haitian asylum seekers entering the country at 
the southern border, and all Haitians, not just those convicted 
of serious crimes or posing a national security threat, will be 
subject to removal.
    I understand that, to accomplish this at the southwest 
border, Haitians will be detained and placed in expedited 
removal proceedings, whereas previously, they were granted 
parole. What guarantees do we have that, in the aftermath of 
the earthquake and cholera epidemics, the Haitian Government 
will issue travel documents for significantly increased numbers 
of Haitian removals?
    Ms. Saldana. We are in conversation with the Haitian 
officials. The Secretary did announce that change today, but 
let me assure you, Mr. Conyers, that Haitians are not going to 
be treated any differently from anyone else. If they have an 
asylum, a fear, asylum claim, or claim to be a refugee, we will 
consider those claims, along with everything else.
    I think you know that, right now, the emergency situation 
that I am aware of is actually on a California border with some 
4,000 Haitians there. I just was in the Central American region 
and heard from a number of those countries, El Salvador, 
Honduras, and Guatemala, that they are aware of, with their 
communications with their fellow governments in South and 
Central America, of 40,000 Haitians who are en route to the 
United States.
    This is why the Secretary made a decision, based on facts 
that he has reviewed, that the conditions in Haiti at least are 
improved enough for us to change the policy back to treating 
Haitians just like everyone else, and that includes affording 
them the rights and privileges that our system provides 
refugees and asylees.
    Mr. Conyers. Well, that is encouraging. Let me turn now to 
the November 2014 priorities memo directed to the Department of 
Homeland Security agents and officers to prioritize the 
immigration enforcement of individuals with serious criminal 
offenses. Can you talk to us about ICE's efforts to locate, 
detain, and deport individuals with a criminal history?
    Ms. Saldana. Yes, sir, I am happy to. Obviously one of 
those other things that we are focused on, who out there, 
fugitive-wise, do we need to focus on as a priority, because we 
cannot get to everybody, but as a priority, to focus on those 
folks who are out in the community that we know need to be 
apprehended and returned to their countries?
    We have a very strong unit that works on only fugitives. 
They review records. They prioritize those fugitives based on 
the nature of their crimes, how long ago their crimes occurred, 
and they are out there, on a constant and daily basis, in the 
early hours of the morning, trying to find folks where we have 
at least information on where we can encounter them and take 
them back.
    We have had quite a bit of success in that regard, and we 
also have operations that occur on a focused basis, like 
Operation Border Resolve earlier this year, where we are trying 
to locate those folks that are fugitives and have escaped our 
system, and we need to get them back.
    Mr. Conyers. Let me tell you that we have a number of other 
questions that I am going to send you, and you can respond in 
writing, and we will incorporate them in the record.
    Ms. Saldana. Yes, sir.
    Mr. Conyers. I think that would be the easiest way, with me 
with only 15 seconds left, to begin this discussion. I think we 
need to become more familiar with the details of the strategies 
that you are using, and I want to encourage you to help us 
locate and detain and deport those individuals with a criminal 
history.
    Ms. Saldana. Yes, sir. Again, one of the Secretary's 
priorities, and we are doing that.
    Mr. Conyers. All right. Thank you, Mr. Chairman.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Texas, Mr. Smith, for 5 minutes.
    Mr. Smith. Mr. Chairman, I am going to use my question time 
to make a statement because, after 8 years of asking Obama 
administration officials why they refuse to enforce their 
immigration laws, I am confident that the Committee still will 
not receive satisfactory answers today. The President's 
immigration policies continue to put innocent Americans at 
risk. The Administration has ignored laws, failed to enforce 
laws, undermined laws, and unconstitutionally changed 
immigration laws.
    Among these dangerous policies is the President's 
unconstitutional Executive Amnesty, which requires Immigration 
and Customs Enforcement officials to release criminal 
immigrants into our neighborhoods where, inevitably, they 
commit additional crimes. Over the last 3 years, ICE has 
released 86,000 criminal immigrants into our communities. They 
have been convicted of over 230,000 crimes, which include 
homicide, aggravated assault, sexual assault, kidnapping, 
driving under the influence, and other serious crimes. Over 30 
percent will be arrested again for killing or injuring more 
innocent Americans.
    The Administration's intentional release of criminal 
immigrants amounts to the largest jailbreak in American 
history, and everyday Americans across the country are paying a 
steep price. Last year, ICE deported a total of 235,000 illegal 
immigrants, the lowest number in 10 years. This was only 2 
percent of the 11 million illegal immigrants in the country, 
and of these, only about 70,000 were interior removals. Under 
the current Administration, ICE has started counting turn-backs 
at the border as traditional interior removals in an attempt to 
pad their deportation figures.
    Previous Presidents did not count turn backs as 
deportations, but then no President has done so little to 
enforce immigration laws. Investigation of immigrants who 
overstay their visas has disappeared. At least 40 percent of 
more than the 11 million illegal immigrants in the country 
entered legally and overstayed their visas, yet ICE only 
deported 2,456 visa over stayers in 2015. This is less than 
one-tenth of 1 percent of the total number of visa over 
stayers.
    In addition, the Administration has done nothing to hold 
any of the 300 sanctuary cities accountable. These local 
governments violate Federal law when they refuse to cooperate 
with Federal immigration authorities in the apprehension and 
deportation of illegal immigrants. Congress mandated the 
cooperation of local officials in an immigration enforcement 
bill in 1996. I know. I wrote the law.
    Tragically, the number of sanctuary cities has exploded 
under the Obama administration. During testimony at our last 
oversight hearing, Director Saldana could not name a single 
instance in which ICE tried to prevent a jurisdiction from 
becoming a sanctuary for criminal immigrants. The lawlessness 
of these sanctuary jurisdictions has had disastrous 
consequences.
    Last year Juan Francisco Lopez Sanchez, a five-time 
deported career felon, shot and killed Katherine Steinle. Lopez 
Sanchez was set free to prey on innocent Americans like Ms. 
Steinle because of San Francisco's sanctuary law. 
Unfortunately, similar tragedies have occurred across the 
country as a result of these laws, so add these casualties to 
the current list of Americans who have become victims because 
of President Obama's immigration policies. These facts and 
figures demonstrate that enforcement of our immigration laws 
runs contrary to the Obama administration's Amnesty Agenda. 
Until the immigration policies of this Administration are 
overturned, illegal immigrants will continue to victimize 
innocent Americans. Mr. Chairman, I have a minute remaining, 
and I will yield that back to you for questions.
    Mr. Goodlatte. The Chair thanks the gentleman. Director, I 
want to follow up on the statement that Mr. Smith made and put 
it in the context of what Mr. Conyers observed, and that is 
that your organization operates with limited resources, and 
yet, in fiscal year 2015, you gave back to the Department of 
Homeland Security $113 million in funds that were specifically 
appropriated for detention and removal. Why did you give this 
money back, given the problems that were just cited by Mr. 
Smith and the fact, as Mr. Conyers noted, you have limited 
resources to begin with?
    Ms. Saldana. Absolutely, sir. This whole issue of how we 
manage funds for specific categories, in this case, beds, that 
is extremely important to me and to our folks in the 
enforcement and removal area, as it is, obviously, to you. It 
is very difficult for us to anticipate the number of people 
coming across the border from 1 year to the next. It goes up, 
and it goes down even over the course of----
    Mr. Goodlatte. I understand that, but Mr. Smith noted that 
there are over 250,000 individuals in this country who are not 
lawfully present in the country and have committed crimes in 
the country, so that number continues to rise, and therefore, 
while it may be difficult to predict how many people are coming 
across the border, it is not difficult to know that you have 
got 250,000 that are already here who should not be there, and 
therefore, should be, until they are deported, in detention 
facilities or using resources to detain them and then remove 
them.
    Ms. Saldana. And we are, sir. That is exactly what we are 
trying to do. This enforcement priority approach that you 
have--you and I disagree on as to its wisdom--focuses not on 
the release of criminal aliens, but on the apprehension and 
removal of criminal aliens. Our statistics alone, with respect 
to the beds, those are filled by people with one or more 
convictions that we are preparing to remove from the country.
    I think the last number I saw was something like 84 percent 
fit into our top priority, so we manage these beds as best as 
we can. Last year, we had some beds that were not filled. This 
year, we have the opposite problem. We have more people in beds 
than we can afford, but we are working very hard to manage that 
problem through the end of the fiscal year.
    Mr. Goodlatte. I would recommend that, when you have 
limited resources, and you have a huge problem that is not 
addressed, you not return money back that could be used to keep 
Americans safer than they are right now. At this time it is my 
pleasure to recognize the gentlewoman from California, Ms. 
Lofgren, for 5 minutes.
    Ms. Lofgren. Thank you, Mr. Chairman. This hearing, as we 
know, comes just days after the bombing and attempted bombing 
in New York and New Jersey. The alleged perpetrator, Ahmad Khan 
Rahami, has, we are very thankful, been arrested. The law 
enforcement investigation is ongoing, and I know that you 
cannot comment on that because it is an ongoing investigation. 
I would note that there is a classified briefing for Members of 
Congress this afternoon. I certainly intend to attend that, but 
I just think it is important to say what the case is and the 
facts that are currently known.
    It is clear that the facts, as we know them, indicate this 
is a case about terrorism, radicalization, national 
intelligence, law enforcement, but it cannot be about 
immigration vetting because Ahmad Khan Rahami came to the 
United States as a child, and how you would vet a 7-year-old, 
it just does not make any sense. He came. His father was a 
small businessman. In fact, his father contacted the FBI 2 
years ago to express concern about his son, and I hope to find 
out, in the classified briefing, why the FBI kind of blew that 
off, but we will find out.
    I hope that people around America will not conflate that 
situation with the Syrian refugee situation that is unfolding. 
We know that DHS has a dedicated office to counter violent 
extremism, and I hope to hear more about your efforts in that 
regard as time goes on, but I would just note, you know, 
looking at the record of refugees from Afghanistan, there were 
virtually no refugees from Afghanistan until 1980 in the United 
States, and refugees came into the United States at about 2,000 
to 4,000 a year until 1990.
    It is interesting, going back to the record, there was a 
congressional task force on Afghanistan. Some of our 
colleagues, Dana Rohrabacher, who I serve on the Science 
Committee with, was a Member of that Committee; and former 
Members like Don Ritter, a Republican from Pennsylvania; and 
Lagomarsino, a Republican from California, were on that. It was 
a bi-partisan Committee.
    Charlie Wilson was on that, and one of the things that they 
said was that the United States had a moral obligation to the 
people of Afghanistan because of the pivotal role they had 
played in defeating the Red Army at a time when Communism was 
on the march around the globe, so I think, as we look at this 
situation and this individual who came to the U.S. as a little 
boy, it is important to remember that the refugees were 
admitted as part of the fight against Communism at that time.
    Now, I want to turn a little bit to detention in ICE. I 
have mentioned in the past my concern about for-profit, private 
detention facilities. I am glad that the Department is looking 
at that. I realize the change cannot happen overnight, but I do 
believe that, for the same reasons, the Department of Justice 
has decided to go in a different direction, namely that private 
facilities are more expensive; they are less accountable; they 
fail to meet constitutional standards. I am hopeful that we 
will be in a position to move in a different direction in ICE, 
just as the DOJ has, after that report is received in a few 
months.
    Having said that, I continue to be concerned about the 
situation of women and children in custody. We know that 
mothers and children have been on a hunger strike at the 
facility at Burkes, and I am concerned and wondering why we 
could not provide a monitored release for those women and their 
children.
    Obviously, these are individuals who are appealing an 
adverse decision. They are in a different posture than the 
women and children in the Texas facilities, and yet some of 
those little children have been essentially been in jail for 
over a year. You know 5-, 6-year-old kids. That really is not 
in keeping with American standards, and I am wondering, 
Director, if it is possible to take a look at, what forms of 
accountability, whether it is bond, whether it is ankle 
monitoring, whether it is placement in a facility that is more 
home-like and less traumatizing for children, could be looked 
at for this population of mothers and children?
    Ms. Saldana. Congresswoman, I share your concern. This is 
not the business we were in not that long ago. We were not in 
the business of family and children. This is a phenomenon that 
has increased over the years as problems have occurred south of 
our borders, but I do take very seriously how long we detain 
families.
    As you know, the average length of stay is now in the 
teens, with respect to our family facilities overall. I am 
familiar with the cases that you are referring to with respect 
to longer-term detentions. I will say that, while I cannot 
comment on a specific case, I am happy to cover that with you 
to the extent that we can and are allowed to, especially where 
we have a waiver of privacy, but generally speaking, the folks 
we are talking about are subject to mandatory detention 
outlined here in this statute, and when they are losing their 
appeals and we are preparing to remove them, we do not detain 
them for the purposes of punishing them----
    Ms. Lofgren. No, I understand that. I will follow up with 
you off agenda because there are provisions in the law that 
would allow them to be held in an accountable fashion. I want 
to turn now, since I do not have a lot of time left, to the 
issue of solitary confinement in civil immigration proceedings. 
We have had a lot of information about the use of solitary 
confinement in America, I mean, whether it is in criminal 
detention, or juvenile detention, and unfortunately, in civil 
detentions. Solitary confinement does tremendous damage to 
people.
    The psychologists tell us it can actually make a person 
mentally ill, to be in solitary confinement for an extended 
period of time. Now, I have come across cases, and we have been 
in communication with your department, about the use of 
solitary confinement for young people that seem frivolous to me 
and, in fact, have been changed. I understand the President has 
directed departments to end their practice of restrictive 
housing, and the Department was required to submit to the White 
House, by September 1st, a report on the use of solitary 
confinement. Do you know when that report will be made public?
    Ms. Saldana. I think it will be any day now. I do not know 
exactly where it is, but I have been advised, and we have kept 
track of--I think it will maybe even be early next week, before 
week's end next week. That is my best estimate right now.
    Ms. Lofgren. All right. I have many other questions, but I 
see, Mr. Chairman, that my time has expired, and so I will 
yield back.
    Mr. Goodlatte. The Chair thanks the gentlewoman and 
recognizes the gentleman from Iowa, Mr. King, for 5 minutes.
    Mr. King. Thank you, Mr. Chairman. Mr. Chairman, I 
appreciate this hearing and statement and opening remarks, and 
I would like to associate myself this morning, especially, with 
that of Mr. Smith from Texas because I think it is important, 
in that we have been at this for almost 8 years, and the 
numbers do not look as discouraging, perhaps, as they did a 
year ago, but there is not hope on the horizon either.
    And I look at the numbers that Mr. Smith has rolled out, 
and I did not hear them disputed, but 86,000 criminal aliens 
released onto our streets, and I think of the years that we 
worked this, and I remember testimony that came here before 
this Committee for years and shortly after I first arrived in 
this Congress, and it would be the testimony of how many people 
died in the desert trying to get into America. Do you have any 
of that data in your memory to give us an idea, a scope of how 
many died in the desert trying to get into America?
    Ms. Saldana. Oh my goodness, sir. I have heard of those 
tragedies, but I do not have that at my fingertips.
    Mr. King. Well, I remember the witnesses that came in and 
testified, and we saw numbers, just the Arizona Desert, in 
those years, that would say 200, 250. Then the next year, it 
went up. We saw numbers that went over 400 a year just in the 
Arizona Desert. Brooks County, Texas has a lot as well, and I 
began to think about that, and I began to think about how many 
Americans died at the hands of those who made it through, and 
we have done at least two GAO studies on that in my time here 
in this Congress. Apples to apples is a hard thing to arrive 
at.
    It is very difficult to unravel this, but I have met a 
number of the people, and it is heartbreaking to me to think of 
the many people who are suffering a loss of a loved one because 
we did not enforce the law, and when I look through this list 
of those that have been released by ICE, and I see, in this 
particular list I looked at a little bit ago, a 101 released 
who had committed homicide, and how many others along the way?
    What is the price to Americans? And so I recall Donald 
Trump highlighting some of the people in his statement before 
the convention in Cleveland, and I noticed that, last week, he 
made a statement that there are thousands of Americans that are 
grieving because they have lost a loved one at the hands of 
someone, whom had been encountered by law enforcement in 
America, including ICE, and been released onto our streets. 
Would you agree with that statement?
    Ms. Saldana. That there are thousands?
    Mr. King. Yes, thousands of people who are suffering the 
loss of a loved one.
    Ms. Saldana. I do not have the exact number, but I do not 
disagree with you, sir. And if I may, Congressman, let me tell 
you, I am a prosecutor. I come to this job as a prosecutor. I 
am used to trying to keep the community safe, and I have not 
discontinued that in this job. I am trying to make the most of 
out of the money we have. I told you earlier that 84 percent of 
people----
    Mr. King. I am sorry to interrupt, but the clock is ticking 
on me, and I do not dispute what you have said, but you have to 
get your orders from on high, and so if this is a matter of 
conscience, then I would ask you now, have you come before this 
Congress and told us what you needed for resources in order to 
enforce the law fully 100 percent? What do you need for 
officers? What do you need for prosecutors? What do you need 
for judges? What do you need for prison beds?
    I have never seen this Administration say we want to 
enforce 100 percent of the law. The signal we get looking at 
this data is that this President has given orders on high to 
release these criminals onto the streets of America, and if 
that is egregious to you, why have we not heard you push back 
against the President? And why have we not heard that request?
    Ms. Saldana. I will have to push back against the facts 
that you are asserting, sir. I really have tried to make this 
clear, but there is no discretion in these releases other than 
for about one-third of the number you are talking about, so 
when we continue to repeat that the Administration is releasing 
people willy-nilly out on the streets who have criminal 
records--we have talked about the Zadvydas; that is the United 
Supreme Court. That is not ICE.
    Mr. King. It is going to take a lot longer to get down into 
this than we actually have here, but I would like to ask you, 
do you recognize these names? Sarah Root.
    Ms. Saldana. I do.
    Mr. King. Brandon Mendoza.
    Ms. Saldana. I do.
    Mr. King. Dominic Durden.
    Ms. Saldana. Yes.
    Mr. King. Jazz Shaw.
    Ms. Saldana. Yes.
    Mr. King. His father, Jamiel.
    Ms. Saldana. Yes.
    Mr. King. Tessa Tranchant. Tessa Tranchant and Allie 
Kunhardt.
    Ms. Saldana. Yes, I do.
    Mr. King. I am glad that you do. I am thankful that you do, 
and we need to remember them. The immigration laws that we have 
are here to be enforced. If we have to lay out the standard 
that it is going to be 100 percent, if we have to put the 
resources out there to do that, this Congress, I believe, and 
the next Congress will be prepared to do that.
    We need to restore the respect for the rule of law. 
Americans are dying every single day because of our failure to 
do so and because of turning people lose on the streets that do 
not return back again, and I see face after face of grieving 
Americans. They are in the thousands over the time that I have 
watched this tragedy, and I am glad that you are aware, and you 
recognize these names, and I appreciate the personal part of 
this, but we need a fresh start on this immigration law in this 
country. Thank you very much. I yield back.
    Mr. Goodlatte. Thank you, Mr. King. Director Saldana, 
before I recognize the gentlewoman from Texas, I am sure you 
know that fewer than 10 percent of the criminal immigrants 
released back into our communities under the Zadvydas case is 
less than 10 percent, so do not try to give the impression that 
you do not have a choice. You do have a choice on over 90 
percent. The gentlewoman from Texas----
    Ms. Saldana. No, sir. That is not correct. Would you like 
me to give you those numbers exactly for the last----
    Mr. Goodlatte. The less than 10 percent is a figure we got 
from you.
    Ms. Saldana. That cannot be because I would have signed 
that letter probably.
    Mr. Goodlatte. Okay. We can come back to this. The 
gentlewoman from Texas, Ms. Jackson Lee, is recognized for her 
questions.
    Ms. Jackson Lee. Let me thank the gentleman for yielding to 
me, and let me thank you, Ms. Saldana, for your service to the 
Nation. Thank you for your service as a U.S. attorney and your 
commitment to law enforcement and your compassion and passion 
in the leadership that you have given.
    I take particular offense to the suggestion that a lifelong 
professional, such as yourself, would, in any way, seek to 
release individuals that should not be released. So first 
question that I ask, is it your purpose, Ms. Saldana, as the 
Director of ICE, to release people without legal authority that 
are judged criminally and just to release them in the street? 
Is that your purpose as the Director?
    Ms. Saldana. It is not, Congresswoman.
    Ms. Jackson Lee. I am just going to ask a series of 
questions. As I do so, let me also take this moment to thank 
the 19,000 ICE employees every day that are on the frontlines 
and are assisting and protecting this Nation. We should be 
grateful for their service. I work with ICE employees. I happen 
to have my office in the Federal Building in Houston, and I 
want to acknowledge many of them as they work throughout our 
community; that, I think, is very important.
    I also want to make the point that we are a Nation of laws 
and a Nation of immigrants. It feels to me that the line of 
questioning on this panel seems to ignore that this Nation was 
built on the hard work of immigrants and some who came not 
willingly. I know that in my history, but I would make the 
point is that we do better when we work together, and I was at 
the border when we had the surge of unaccompanied children, and 
I associate myself, by the way, with the comments of my 
colleague, Congresswoman Lofgren, as it relates to detention 
centers, but I will not ask that question.
    And I saw the transfer from the border personnel into ICE 
and the responsibilities that occurred, and I understand what 
you are saying about not being able to project the numbers that 
come across regularly. So I want to put that on the record, but 
I also want to take note that those who are undocumented in 
this country have dropped under the Obama administration, 
dropped from 11 million, and it may be continuing to drop.
    I also want to make the point that I see nothing in the 
leadership of President Obama or Secretary Johnson to, in any 
way, to adhere to the illegal releasing of individuals that 
should not be released. So let me raise these questions. There 
have been reports, of course, that there were 858 individuals 
that should not have been naturalized that were. I just want to 
ask you a yes or no question. The inspector general has 
provided two recommendations: that ICE finish uploading into 
the digital repository the fingerprints it identified; that DHS 
resolve these cases of naturalized citizens who may have been 
ineligible. Are you in the process of doing that?
    Ms. Saldana. Yes.
    Ms. Jackson Lee. Do you do it willingly?
    Ms. Saldana. Of course.
    Ms. Jackson Lee. And do you acknowledge 858, I see is the 
number, that you deal with, prospectively, millions in this 
very large country of individuals that come under ICE authority 
over the years?
    Ms. Saldana. Yes, ma'am.
    Ms. Jackson Lee. And so, out of the 858, you are now 
correcting that process, and my understanding is that the 
inspector general is satisfied that you are doing that. Is that 
correct?
    Ms. Saldana. Yes.
    Ms. Jackson Lee. Then let me follow up with this. The 
majority has raised questions about the release of individuals 
with a criminal history. I understand you cannot talk about 
specific cases, but can you give me general examples of the 
reasons why an individual might be released from ICE custody? 
What are the reasons why a judge would grant release from 
custody?
    And in the context of release of individuals with a 
criminal history, what types of crimes are we talking about? 
Are these violent felons, individuals with minor traffic 
offenses mostly, or individuals whose only crime is reentering 
after deportation, which I know there are many? And according 
to the data from ICE OPLA, ICE has exercised prosecutorial 
discretion and declined to deport some individuals with a 
criminal history. I understand that you cannot discuss that. 
Can you give examples of the kind of cases that they may be?
    Number two, we have had over the last couple of days very 
tragic incidences in New Jersey, New York, and Minnesota. All 
initial public reports suggest that Ahmad Khan Rahami, New 
York, New Jersey; and Dahir Adan, Minnesota, came as young 
children and completed their entire primary and secondary 
educations in the United States. This is a collective effort by 
all of us, Members of Congress, Department of Homeland 
Security; on this question, do you just have any thoughts as to 
how ICE can work with other law enforcement agencies to prevent 
homegrown terrorist acts like this?
    But the point I want to make is that the individual actors 
of the last terrorist incidences of the last 3 days were, in 
fact, individuals who were here in the United States, although 
they visited other countries. Can you answer the first one and 
second one? And I would appreciate it very much. Again, thank 
you so very much for your service to the Nation.
    Ms. Saldana. Thank you so much, Congresswoman. This is the 
point that I was making earlier. Every decision we make, and 
this is why we go about our business in the most appropriate 
and efficient way that we can, given the limited amount of 
dollars; $6 billion sounds like a lot of money, but when you 
are talking about the vastness of our country and the 
immigrants that are in our country, you have to figure out a 
way to use your discretion to prosecute wisely, with the first 
emphasis on public safety.
    So this statue lays out the laws, the regulations with 
respect to how we make those decisions. On apprehension, there 
is a section there. There is a section on who we must detain 
and who we can detain, and then there is a section on bond and 
who we release on bond. If it is up to us, and often it is not; 
the court will actually order a release on bond. I want to 
repeat and advise every Member of this Committee because I want 
you all to know this important fact: we do not ignore any 
immigrant who has a final order of removal and for whom we have 
a travel document. That person is going back to their country.
    We need those two things, though, so when we are talking 
about removals and, with respect to this detention issue and 
the releases, two-thirds of these releases are out of our 
hands. This is what I was telling Congressman Smith a little 
while ago. We have Zadvydas, and we have got an immigration 
court system which has a half a million case backlog, which is 
going about their business as efficiently as they can, I am 
sure, but cannot get to everybody. So we will use our 
discretion to look at all the facts and circumstances of case.
    Do they have a serious criminal conviction? If so, how long 
ago was that conviction? What is the amount of time that they 
have been in the country? Do they have citizen-born relatives 
or children? So many factors that are included in our review of 
those people and we make the best decisions we can.
    Mr. Goodlatte. Director Saldana, let me interrupt you 
because I am looking at your official figures. If these are 
incorrect, I hope you will correct them by the end of this 
hearing, but what we have from you is fiscal year 2015, 11 
percent, only 11 percent, were Saldana's cases, that 37 
percent, 7,293, were discretionary. You put those individuals 
back in our communities, where over 30 percent will be 
rearrested.
    Ms. Saldana. Seven thousand, right.
    Mr. Goodlatte. That is correct. That is just in 1 year.
    Ms. Saldana. What I was saying----
    Ms. Jackson Lee. Chairman, may I? You are looking at only 
one number. You should look at the immigration judge decisions.
    Mr. Goodlatte. No, no. I have got that in front of me so 
the Zadvydas cases is 11 percent, discretionary 37 percent.
    Ms. Jackson Lee. Well, I am going to allow her to do it and 
I am going to finish my point.
    Mr. Goodlatte. I welcome any correction to her figures 
before we finish the hearing though. The gentlewoman's time has 
expired and the gentleman from----
    Ms. Jackson Lee. Can I yield back just on one comment? I am 
yielding back, if I might to--I appreciate her answer to my 
question. Again, I want to emphasize the discretion and so the 
DACA young people, who were here in the United States, came in 
college, is a reputable decision by ICE and others that these 
individuals do not fall into that priority and are not 
dangerous. Prosecutorial discretion is within the law in the 
context of Director Saldana, but thank you so very much. I 
yield back.
    Mr. Goodlatte. Thank you, Ms. Jackson Lee, and the 
gentleman from Michigan, Mr. Bishop, is recognized for his 
question.
    Mr. Bishop. Thank you, Mr. Chairman, and thank you, 
Director, for being here today. Thank you for sharing your 
time.
    I was reviewing my materials last night regarding this 
hearing today, and I came across the core mission of ICE, and I 
found it interesting, and it is to protect America from the 
cross-border crime and illegal immigration that threaten 
national security and public safety. And ICE has been delegated 
the statutory authority to arrest, detain, and remove aliens 
who are illegally present or have otherwise violated 
immigration law.
    Obviously, this policy, this mission that you have is 
extremely important to this Nation, and accordingly, you have 
been delegated substantial enforcement power to fulfill your 
mission. And I noted earlier that you indicated that you came 
into this job with a prosecutor's state of mind. That is how 
you think of your job, and I appreciate the fact that you do 
that because I think you recognize that we are a Nation of laws 
and that our responsibility is to enforce the law.
    ICE has identified 23 jurisdictions that refuse to accept 
detainers. We know them as sanctuary cities. They refuse to 
accept detainers or requests for notification for aliens in 
their custody charged with State offenses. Does the existence 
of sanctuary cities threaten your ability to fulfill the 
mission that was just stated?
    Ms. Saldana. I am sorry. As I said in my opening statement, 
sir, we have to have the cooperation of local law enforcement 
in going about our job because they are inclined to encounter 
these folks first than we are. So the 23 that you are talking 
about, actually, that was my effort, as the manager of this 
agency, to try to identify what jurisdictions are having the 
most negative impact on our ability to get to prisoners 
transferred to us who have criminal records or otherwise meet 
the priorities, and so identified 25 at the time. We have 
worked incredibly hard, and I say we. I cannot take the credit. 
I am going to have to give some to the Secretary and to the 
deputy.
    Mr. Bishop. Director, I am low on time. So sorry, we have 5 
minutes, and I do not mean to interrupt you, but my concern is 
that, as a former prosecutor, I am just wondering how you can 
continue to square the existence of sanctuary cities with the 
duty of a prosecutor to ensure justice and the constitutional 
duty of the state of equal protection of law.
    It is specifically stated in the 14th Amendment, so I know 
that you have got all this great team in place, but it just 
seems to me that the policy of sanctuary cities prevents you 
from your core mission, and that is my concern. That is my 
concern, but it is also the concern of the folks that I 
represent and the constituents that I represent.
    I am from a border city, Detroit. It is not mentioned in 
this list, by the way, but I have talked agents, and they do 
tell me that they have a policy of sanctuary cities, and I am 
sure that exists in a lot of them. That troubles me to think 
that I live in an area, a border city, and it has a sanctuary 
city policy. It worries me for my constituents, but it also 
worries me for one of your core objectives, which is to 
represent ICE officers and to protect ICE officers, and I am 
concerned that the existence of sanctuary cities puts your 
officers at risk, along with the citizens. It puts your 
officers at risk. I do not know how that cannot be an issue 
with your office and with those officers on the street who 
really their hands are tied.
    Ms. Saldana. And I think I mentioned earlier, I worked with 
100 counties in my U.S. attorney job. I had 100 different 
sheriffs and other law enforcement officials I had to work 
with. These cities that you are talking about, sir, have their 
own laws; either the State passes them or there is a local 
ordinance over which I have no control. All I can do is to use 
my best persuasive powers to work with them to try to bring 
them back to table.
    The fact that we have 17 who are working with us of the 25 
that I had on that list and 3 more that are beginning to work 
with us, it is a result of very hard work on the part of all of 
us at ICE. So I will continue to do that. I am not going to 
give up on anybody.
    Mr. Bishop. I appreciate that. I know my time is up, but I 
want to ask one more question. If you are running the shop and 
you have decided that--you have looked at this, and I know that 
you have had experience here, obviously, would you continue the 
policy of sanctuary cities?
    Ms. Saldana. ICE does not have a policy of sanctuary 
cities.
    Mr. Bishop. You are part of the enforcement process. 
Obviously, you were working in the environment of these cities 
where sanctuary cities exist, so you are a critical part of 
this process of enforcement of our laws.
    Ms. Saldana. And I am trying to gain back the trust of 
those communities who have given up on working with us. I will 
not give up on them.
    Mr. Bishop. I take that as you----
    Ms. Saldana. I want to work with every local law 
enforcement agency there is.
    Mr. Bishop. Okay. Thank you, Mr. Chairman. I yield back.
    Mr. Goodlatte. The gentleman yields back. The Chair will 
now recognize the gentleman from Georgia, Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman. America has a history 
of reliance on free and cheap labor to create wealth for owners 
of the means of production in this country. There has been a 
concerted effort throughout the years to attract undocumented 
workers from south of the border who provide cheap and reliable 
labor.
    At the same time, America has prosecuted a drug war south 
of the border, also here in America, in the inner cities. It 
has been a complete failure here in America, and it is a 
complete failure, the drug war, south of the border. It has 
resulted in the destabilization of governments and fostered 
armed, violent gangs vying for control of the drug trade. The 
more violent the drug war becomes, the greater the profits for 
the most violent drug gangs, who can eradicate their 
competition.
    Who gets caught in the middle? The innocent citizens in 
Central and South America. The top three most violent cities, 
due to criminal violence in the world, are located just south 
of our borders: Venezuela, Honduras, El Salvador, and the 
fourth is in Mexico. It has produced a humanitarian crisis of 
families, unaccompanied minors making their way from Central 
America or through Central America, from Central America, 
through Central America, through Mexico, up to the U.S. border.
    Now this confluence of manmade consequences, intentional, 
foreseeable consequences comes at a time where this Congress 
continues to enforce a 34,000-bed mandate on your agency. In 
other words, we have created a private prison industrial 
complex that feasts on this confluence of foreseeable 
consequences. With respect to the 34,000-bed mandate, what is 
your daily average occupancy?
    Ms. Saldana. Well, the last time I checked in the last 
couple of days, we were a little bit over 34,000, something 
like 34,021, something in that neighborhood.
    Mr. Johnson. And you generally keep the 34,000-bed 
requirement afield. Is that correct? You generally?
    Ms. Saldana. Yes, generally speaking. Let me just be sure I 
am understood on this point. We do not put a person in a bed 
because we have some kind of a quota. We put a person in 
detention because it is necessary to have them in detention in 
the process of removing them from this country, so my effort is 
not----
    Mr. Johnson. Okay, and I know you have been interrupted 
quite a lot, and I have got to follow suit, too, because I want 
to get my questions in. The 34,000-bed mandate, does it include 
women and children humanitarian cases coming out of Central 
America to escape the drug violence?
    Ms. Saldana. The requirement is not to have those beds 
filled. It is to have those beds available, and it----
    Mr. Johnson. Well, but those beds are available for that 
group of people; is it not true?
    Ms. Saldana. There is a group of that, a small group, 
comparatively speaking, that are families, women, and children.
    Mr. Johnson. And also, for things like the targets of 
Operation Border Guardian, Central American families with 
children live, those raids result in people filling those 
34,000 beds. Is that not correct?
    Ms. Saldana. I will have to disagree with the use of the 
word ``raids.'' These are focused operations where we have gone 
through a file and identified people who have final orders of 
removal and are ready to be removed.
    Mr. Johnson. Now, these include children who have been 
brought to this country by their parents at an early age. They 
did not give consent. They just came with their parents. They 
are innocent, but yet they get swept up in operations like 
Operation Boarder Guardian and they get put into the private 
prison industrial complex to fill the 34,000-bed mandate. Is 
that correct?
    Ms. Saldana. No, children are not put into detention. They 
are turned over to our Department of Health and Human Services, 
separate.
    Mr. Johnson. So the children and not part of the 34,000-bed 
mandate?
    Ms. Saldana. Children, I am talking about people under 18 
years of age. They are turned over. The system, with respect to 
kids, is to turn them over to Health and Human Services, who 
finds a suitable placement outside of the detention system.
    Mr. Johnson. But if they are in the detention system, they 
are part of the 34,000-bed mandate. True or false?
    Mr. Goodlatte. The gentleman is out of time, but you may 
answer the question. You may answer it, Director, if you would 
like.
    Ms. Saldana. Thank you. What you are talking about is 
children who are with their parent, typically a woman. I think 
the 34,000 is a separate number. That is adults. We are 
allocated money for families and children, so no, the 34,000 
you are talking about is families, and those we have in the two 
institutions in Texas and Burke's facility, about 100 beds, 
maybe a little less, in Pennsylvania.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Goodlatte. The gentleman from Georgia yields back. The 
Chair will now recognize the gentleman from California, Mr. 
Issa.
    Mr. Issa. The gentleman from Ohio would be better to take 
first.
    Mr. Goodlatte. The gentleman from Ohio, Mr. Chabot.
    Mr. Chabot. Thank you very much, Mr. Chairman. Madame 
Director, first of all, our colleague from Michigan, Mr. 
Bishop, asked a couple of questions you answered, but there is 
one I did not hear an answer for, and I would like to ask that 
again, if I could. He said that, when these sanctuary cities or 
jurisdictions, in some cases, because some of them are not 
cities; they are counties and things, but when they fail to 
honor ICE detainers, he asked you, well, would not that put 
your officers and the people they are trying to, in some cases, 
detain or arrest, does not that put them at risk as well?
    Ms. Saldana. I have testified before. Yes, sir. That is one 
of my concerns about not having this cooperative relationship 
is we do have to go out in the early morning hours in order to 
find people, unfortunately, many times, in their homes.
    Mr. Chabot. Thank you. I just did not hear the answer to 
that. And I guess, obviously, because, if the local community 
has them, they have got them arrested. They have already made 
sure they do not have a weapon. They have patted them down. 
They are safe there. As you said, in the early morning hours, 
your officer has to go out and pick them up again, they are at 
risk. They might now have a gun. It might be dark out. You do 
not know what is going on, so your officer is at risk, and the 
person they are trying to detain could also be at additional 
risk. So I guess the point is that these sanctuary cities are 
putting people on both sides at risk by having this policy.
    Ms. Saldana. And fortunately, there is some good news in 
this area, and that is what I was telling about, having turned 
at least the minds and hearts of at least 17 of those top-25 
communities. So yes, no, that is one of the points we make with 
respect to those communities is help us here because these are 
law enforcement officers who are facing additional risks.
    Mr. Chabot. And I think the public has got the right to 
know, at least, what are some of the larger cities that we are 
talking about that are sanctuary cities?
    Ms. Saldana. I think we provided that. I think one of the 
congressmen mentioned San Francisco.
    Mr. Chabot. San Francisco; Bolder, Colorado; Philadelphia.
    Ms. Saldana. I can provide you a list, sir. I think we have 
provided it to the appropriations folks.
    Mr. Chabot. I think of your support staff is nodding in the 
affirmative.
    Ms. Saldana. Boulder.
    Mr. Chabot. Boulder is one of the larger.
    Ms. Saldana. It may well be.
    Mr. Chabot. Okay, because, I mean, I think this is 
something that is a national issue. I think the public has the 
right to know who some of these cities are that are abusing the 
process, and okay, I have got a couple other questions. Let me 
move on.
    Giving the recidivism rate for criminal aliens, it is 
difficult to understand why aliens, who are repeat offenders of 
crimes, are far too often released back into our communities. 
How does ICE address the increased danger posed to our 
citizens, and what steps is ICE or any other governmental 
agencies taken to decrease the chance that an alien will 
reoffend?
    Ms. Saldana. Well, public safety, as I said earlier, is my 
primary concern. This is top of our minds. I have personally 
worked with our field office directors in determinations of 
prosecutorial discretion, and in those areas, the 37 percent of 
criminal releases that we have had that are at our discretion, 
I want to make sure that they are looking at all the facts and 
circumstances pertaining to a particular individual to make 
sure that we do not have people who are a threat to public 
safety released under our discretion.
    Again, I point out two-thirds of the people released that 
have criminal records that you all have mentioned have been at 
either the instance under the direction the Supreme Court in 
the Zadvydas case or immigration judges letting folks go. The 
matter is out of our control.
    Mr. Chabot. Thank you. I think I have got time for about 
one more question, hopefully the answer, too. Criminal alien 
gangs, such as MS-13, are growing rapidly across the Nation I 
think as we all know. MS-13 violence and gang-related murders 
have risen sharply in cities all over the country.
    The Department of Justice estimates there are 6,000 MS-13 
members in the U.S. and over 30,000 in Central America and 
Mexico, and I happen to be in Guatemala and Honduras and Costa 
Rica recently, and you know, one of their points was one of the 
reason a lot of these young people are coming up here is they 
are trying to get away from the gang activity.
    And so one of the main things we could do to keep from 
coming up here is to help them fight that gang activity. I 
think there is some merit in that. It is not the whole answer, 
but I think it is part of it. With the continued surge of 
unaccompanied minors illegally entering at our southwest 
border, we can only expect gang membership in this country, 
likely, to increase. Gang membership and aggravated felons are 
supposed to be an enforcement priority under the DHS 
guidelines, yet ICE's Office of Principal Legal Advisor closed 
removal cases against least 44 aggravated felons and 20 gang 
member since 2014. These individuals were released from 
custody, and ICE will not seek their removal. What is the 
purpose of enforcement priorities if ICE chooses not to adhere 
to the DHS guidelines?
    Ms. Saldana. Those guidelines are exactly that. As I said 
earlier, just like a Federal court judge makes a decision of 
releasing someone on the basis of all the facts and 
circumstances relating to that person, we do that also with 
respect to the discretionary releases. So if you have someone 
who has turned away from gangs, who is clearly try to make 
their way in this country, having rejected that lifestyle, that 
may be an explanation for some of those 40. I do not know 
exactly the 40 individuals you are talking about, but we look, 
sir.
    We look at all the facts and circumstances. Gangs have been 
part of our special operations that we have conducted. We 
yielded about 1,000 gang members in our last operation, and 
they are now in removal proceedings on their way out of the 
country, so it is definitely an enforcement priority, but that 
does not mean that every person who has had the moniker of 
being associated with a gang or a gang member previously would 
necessarily be detained if, in fact, they are in situations 
like I described, where someone is trying turn away from that 
lifestyle.
    Mr. Chabot. What about the aggravated felons?
    Mr. Goodlatte. The gentleman is out of time, but you may 
answer the question.
    Ms. Saldana. Yeah, same with the aggravated felons, if 
there is an aggravated felon. They are our priority. If they 
have been released--I sound like a broken record I know--it is 
because of something pertaining to that individual. Was this a 
felony that happened 30 years ago? The person has been in this 
country for 50 years.
    I do not know, but our people are trained, and they have 
consistent training over a period of time with respect to what 
to look for, what information to give. I have set up a review 
panel within headquarters to look at every criminal release and 
to make sure that we have done it properly and that there is 
actually a reason for the prosecutorial discretion if it is 
being exercised in that case.
    Mr. Chabot. Thank you.
    Mr. Goodlatte. The gentleman from Ohio yields back. The 
Chair will now recognize the gentlelady from California, Ms. 
Chu.
    Ms. Chu. Thank you. Director Saldana, in 1996, the 
Immigration and Naturalization Service released a document 
called Operating Instructions on Questioning Persons During 
Labor Disputes. The document has been used by advocates since 
its release and has served as a valuable resource for worker 
and immigrant advocates to explain to undocumented workers what 
they should expect when ICE agents arrive at a workplace.
    In particular, the guidance laid ways in which immigration 
law enforcement officers could avoid unknowingly becoming 
involved in a labor dispute; for instance, if information may 
have been provided in order to retaliate against employees for 
exercising their rights. Well, this spring, ICE revised the 
document, but has refused to make it public.
    Director Saldana, I think it is important for immigrants 
and labor advocates to know your agency's policies for 
governing ICE agent interactions with workers during employment 
disputes, so I would like to know why this document has not 
been made public.
    Ms. Saldana. The document that you are talking about having 
been revised?
    Ms. Chu. Yes.
    Ms. Saldana. If it contains sensitive law enforcement 
information with respect to our procedures, our approaches to 
apprehension or things like that, that is something that we 
would not disclose to the public, but I will tell you, 
Congresswoman, we have involved nongovernmental organizations, 
representatives from law enforcement in the drafting of so many 
of our policies with respect to detention, with respect to 
reform on family centers. I have got an advisory committee on 
that very issue. I will take a look at that and see 
specifically why it is that we have not released it and 
certainly get back to you on that.
    Ms. Chu. Well, I find it curious that you are saying it 
could be law-enforcement-sensitive because the document was 
made public for so many years since 1996.
    Ms. Saldana. And that is very unfortunate. I have made it a 
point to be careful with respect to our law-enforcement-
sensitive information. That is not something I agree with 
necessarily because we should not be disclosing certain 
procedures, but I do not know if this specific report falls 
within that.
    Ms. Chu. Well, the Interagency Working Group created by 
President Obama's executive action on immigration was charged 
not only with developing more effective policies, but upholding 
the value of transparency, and this would seem to fall right 
into the ideal of being transparent.
    So I would have to say that I truly am puzzled by this lack 
the transparency on this particular guidance, especially when 
it is a change in the negative in terms of reducing the 
information available to people. Also, if you will not publicly 
release this new version of the operating instructions, are 
there alternative ways of allowing advocates to fully 
understand how ICE's policy in this area has changed?
    Ms. Saldana. Absolutely. There are ways to communicate with 
the general public and immigrants, in particular, and we will 
look at that with respect to this particular document. You have 
given me an opportunity to talk about my community relations 
officer in our Office of Community Engagement that we just 
stood up recently for that very reason that you are talking 
about.
    I want an open line of communication, not only with law 
enforcement, sheriffs, police chiefs, but also with members of 
the community, chambers of commerce, immigrant advocates. I 
have personally met, and so has my senior advisor who is 
actually here, Liz Cedillo-Pereira, with a number of groups 
across the country to try to explain our policies and why we go 
about our business in the way we do. We are not trying to hide 
our policies. I think many of them are published and in the 
public domain, and in fact, rather than hide, I am trying to 
inform folks where our priorities are, who should be concerned, 
and that is top of the list is criminals and gang members and 
the like, and who is not a priority within our system.
    So I am with you on transparency and open communication. I 
wish I could get out to more places, but I have a ball and 
chain, unfortunately, that leaves me in Washington often, but I 
do have now a community relations officer, either en route or 
already on board, in every one of our areas of responsibility, 
25 of them across the country with the exception of Hawaii.
    Ms. Chu. Well, at the very least, can the immigrant and 
labor rights advocates have meetings with your top 
administrators so that they can explain how ICE's policy, in 
this area, has changed?
    Ms. Saldana. We will certainly communicate on that policy 
with them. That will be included, along with things like where 
we apprehend people, sensitive locations, all these other 
issues that we try to deal with the advocate community on.
    Ms. Chu. Thank you. I yield back.
    Mr. Goodlatte. The gentlelady from California yields back. 
The Chair will now recognize the gentleman from California, 
Chairman Issa.
    Mr. Issa. Thank you, Mr. Chairman. Director, thank you for 
your openness and candor on a number of subjects. I have got 
one more. ICE's policy of releasing removable criminal aliens 
under Priority Enforcement Program and the use of prosecutorial 
discretion has led to some tragic consequences.
    No one doubts that we have had multiple, and they generally 
make national news for obvious reasons, but reports indicate 
that 83 percent of aliens released nationwide between 2012 and 
2016 were convicted felons, and 30 percent of them committed 
serious felony offenses, such as rape, child molestation, and 
attempted murder. After the release from ICE, again, 30 percent 
committed additional felonies after their release.
    Given the danger of recidivism by these individuals, or 
another way of putting it, Director, consider that, in your 
discretion, you have been wrong 30 percent of the time, and 
people have died. People have been raped. People have been 
molested. Is it not, in fact, time to change that discretion to 
make it less permissive?
    Ms. Saldana. I am not sure where that is coming from, 
Congressman, with respect to we have been wrong 30 percent of 
the time. If you are talking about total releases, that is one 
number, but as I explained earlier, two-thirds of those 
releases are not at our discretion; only about 37 percent are, 
and in those cases, we take very good care in reviewing files 
to ensure that there is a basis for that release. The women and 
men of ICE do not want to see a single immigrant go back and 
commit a criminal act. We are doing the best we can. Are we 
perfect? We are not. I have to admit that.
    Mr. Issa. Well, let us look at it another way. Under 
Rodriguez currently, if you do not foresee finishing the 
adjudication of a case after 6 months, you are obliged to 
release a non-legal immigrant, someone who came here illegally, 
who you are attempting to deport, and when you release them, 
they generally disappear, and unless you catch them again, they 
do not up. Is that not correct?
    Ms. Saldana. Many times.
    Mr. Issa. So for this Committee, the committee of 
jurisdiction, to change the law, even to change the 
Constitution if needed, is this not a problem that, currently, 
either you do not have the tools to adjudicate a case within 6 
months, or the courts are not available to you for an 
expeditious 6 months, and you are being forced to release, 
knowingly, people who enter the country illegally, are 
appropriate for deportation, often violent criminals, and yet 
you are forced to release them under current Supreme Court 
decision and ninth circuit, right?
    Ms. Saldana. That is true.
    Mr. Issa. So if we look at both sides of the aisle here and 
we were to look prospectively into next Congress, is not the 
most important tool we would give you a pair of tools? One, the 
ability to adjudicate cases in less than 6 months, so that you 
do not come up against the mandatory release, and sufficient 
assets to, in fact, ensure that you never have to release 
somebody simply because you do not have the capacity to hold 
them.
    Ms. Saldana. That certainly would be helpful and if I can 
add to that point.
    Mr. Issa. Of course.
    Ms. Saldana. And I would love to sit with anybody who is 
looking at this issue in particular to assist in any way I can, 
but with respect to those people that we are required to 
release under the Supreme Court decision, many of them, and 
probably the majority, are because we cannot get travel 
documents from the country to which they need to be 
repatriated, and that is why we are working so hard with those 
foreign governments to try to change that.
    Mr. Issa. Well, then let me do a final question in my 
remaining 1 minute, and I will leave you plenty of time for an 
answer. I also serve on foreign affairs and my colleague, Mr. 
Chabot, and I serve together. Would it not be, at a bare 
minimum, appropriate to provide the Department of State the 
insistence on your behalf through the Secretary Johnson that, 
in fact, there be an outcome, meaning visas which are granted 
by the State Department, should be withheld by countries who 
refuse to take back the individuals who have committed crimes, 
done other wrong things, and for which we want to return them 
to their home country?
    Is that not really the quid pro quo that should exist where 
Secretary Johnson should be able to get the Secretary of State 
to use his authority to effectively stop granting visas, at 
least reduce them, to countries that are not cooperating? Is 
that not a back and forth that the next Administration is going 
to have to deal with?
    Ms. Saldana. I think so, and the Secretary is very much 
aware of that, and he has taken under advisement how he should 
exercise that authority.
    Mr. Issa. Has he made that request to the Secretary of 
State?
    Ms. Saldana. As I said earlier, I believe he has one 
seriously under consideration. I do not know that the letter 
has actually been exchanged.
    Mr. Issa. Thank you.
    Ms. Saldana. But I do know he is aware of it.
    Mr. Issa. Okay. Thank you, Mr. Chairman.
    Mr. Goodlatte. The gentleman from California yields back. 
The Chair will now recognize the gentlelady from California.
    Ms. Lofgren. I would like to make a unanimous request for 
unanimous consent that the statements of the Lutheran 
Immigration Refugee Service, the National Immigration Law 
Center, Human Rights First, the Fair Immigration Reform 
Movement, Hebrew Immigration Assistance, and the American 
Immigration Council be placed in the record.
    Mr. Goodlatte. Without objection.*
---------------------------------------------------------------------------
    *Note: The material referred to is not printed in this hearing 
record but is on file with the Committee, and can also be accessed at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=105348
    The Chair will now recognize the gentleman from Florida, 
Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman. Director Saldana, 
thanks for being here. I want to go back to something that the 
Chairman had asked initially when he asked about the 34,000 
beds that Congress says must be filled and the reliance on 
private facilities to fill those beds.
    And as you are aware, in our Homeland Security 
appropriations bill, Congress requires the detention, 
foolishly, I believe, requires the detention of 34,000 people 
each day, with no regard for actual need, and this requirement, 
referred to as the detention bed mandate, it costs more than $2 
billion per year or $5.5 million per day. And the cost of 
holding someone in detention is approximately $159 per day per 
person when, in many instances, there are other ways that the 
person can be monitored at significantly lower cost to the 
taxpayer, and I just wanted to go back.
    I have serious concerns about the contracts between ICE and 
private detention companies that mandate that a fixed number of 
people be locked up at specific centers. The GAO has raised 
concerns about both the cost and the practice of lockup quotas, 
and groups like Detention Watch Network and the Center for 
Constitutional Rights have also spoken out against them. The 
lock up quota provisions obligate ICE to pay for a minimum 
number of immigration detention beds at specific facilities 
referred to in contracts as guaranteed minimums. And under 
these contracts, ICE pays for a minimum number of detention 
beds, even if they are not used, all to ensure that these 
private companies receive a profit.
    And after July 14, 2015 Oversight hearing with Secretary 
Johnson, I submitted several questions for the record on 
guaranteed minimum detention beds that are contained in 
contracts between ICE and these private companies. The 
secretary responded and confirmed that contracts between ICE 
and private detention companies contain this guaranteed minimum 
of detention beds. These contractual provisions containing 
lockup quotas are entrenching the national detention bed 
mandate at the local level and encourage local ICE officials to 
keep people in detention.
    Now over the summer, a report by the U.S. Commission on 
International Religious Freedom was released. It described a 
very disturbing statement from an ICE official at headquarters 
who described that bond rates are determined in different areas 
based on bed space. Rates are lower when there are fewer beds 
available since there is nowhere to detain the individual and 
vice versa. It is extremely troubling that bond rates are being 
set for people based on the availability of detention bed space 
in a locality instead of whether or not that person is a flight 
risk and whether or not they are violent.
    So I just have a few questions. Does the statement from an 
ICE official accurately describe how bond rates are set?
    Ms. Saldana. No.
    Mr. Deutch. That statement was incorrect? Could you 
elaborate?
    Ms. Saldana. Yeah, the bonds are set either by a court or, 
in those cases where ICE has some discretion, we look at the 
facts and circumstances of the case and set the bond amount at 
a number that will ensure that person's appearance for their 
day in court. So that is the instruction that is out there that 
is writing to our lawyers, and that is the way it is exercised.
    Mr. Deutch. So the statement in the report that the ICE 
official said bond rates are determined based on bed space is 
absolutely inaccurate?
    Ms. Saldana. It is inaccurate.
    Mr. Deutch. Do you a agree that Congress requiring that 
these beds be filled takes away the discretion of law 
enforcement in a way that Congress does not do to any other law 
enforcement agency?
    Ms. Saldana. I have the ultimate responsibility for 
detention and detention centers, sir. The way I construe that 
that mandate, the mandate is to have those beds available. The 
mandate is not to spend X amount of money. I am not going to 
put somebody in a detention bed that does not need to be there, 
neither am I going to deny to release someone because detention 
space is not available if they need to be detained.
    Mr. Deutch. Director Saldana, I am sorry. I do not have a 
lot of time. I understand what you would do, but when these 
contracts are entered into with private detention facilities, 
does the detention mandate come into play? Do those contracts 
guarantee to these private operators that certain beds will be 
paid for on a regular basis?
    Ms. Saldana. We have to anticipate that there are a certain 
number of beds available. The 34,000 is a number that is 
obviously part of that mandate of available beds, so we have to 
have that available, whether those beds are used or not. That 
is the way that the statue is written.
    Mr. Deutch. Right, so you would agree with me that Congress 
getting involved to mandate that there is a certain number of 
beds that are filled, which is the way it is interpreted by my 
colleagues here who put that misguided policy into law, that 
having that in there takes away the discretion of the ICE 
officials, and in fact, winds up guaranteeing profits for these 
private detention facilities?
    Ms. Saldana. That is not why we engage in these contracts 
with them, and I do not put someone in a detention bed just 
because I need to fill one.
    Mr. Deutch. I know that not why you engage, but the private 
companies come to you and say, ``We have to have X number of 
beds paid for. Congress says it, and Congress says that there 
has to be billions of dollars spent every year in order to 
ensure that. We are going to calculate these, our fees, based 
on what Congress says has to be done, regardless of whether you 
believe that those beds should be filled or not and whether the 
person is determined to be a flight risk or not.''
    Mr. Goodlatte. The gentleman is out of time, but you are 
welcome to an answer.
    Ms. Saldana. I am sorry. I lost your question there. What 
was your question? I am sorry.
    Mr. Deutch. It was a description of the way that these 
private detention facilities negotiate these contracts based 
upon the $2 billion a year that Congress says has to be spent 
in large part for the benefit and, primarily, some would argue, 
for the benefit of these private detention companies.
    Ms. Saldana. I will tell you, they do not dictate to us 
what terms of the contract are. We let out a proposal that 
specified the terms of the contracts, and that 34,000 is a 
useful tool, because that is how much money we have, in order 
to set that number, but that bed is not going to be filled 
unless it needs to be. And we are not going to release anyone 
who should be in a bed because we do not have money available.
    Mr. Deutch. But then it is not your determination what beds 
are needed. It is the determination made by Congress that says 
that we are going to spend $2 billion a year to make beds 
available. That is interpreted by my colleagues as those beds 
should be filled, which ultimately is going to benefit those 
private companies.
    For everyone who has looked at this, to take away the 
discretion of ICE official to decide what should to be done 
here and to say that Congress is imposing it so that these 
private companies can come to and say, ``Look, Congress has to 
spend the money, $2 billion. Here is the number that we need in 
order to build this,'' does not seem like the right approach. 
That is all I am saying. Thank you, Mr. Chairman.
    Mr. Goodlatte. The gentleman reluctantly yields back, and 
the Chair would now recognize the gentleman from Arizona, Mr. 
Franks.
    Mr. Franks. Well, thank you, Mr. Chairman, and Director 
Saldana, thank you for being here. If I can, I want to take up 
where Chairman Issa left off. I thought his questions were 
profound, very cogent, because Issa suggested that, in court 
records, that ``many of the criminals that they release were 
traffic violators or other nonviolent offenders,'' but Mr. 
Issa's comments there show that the percentage of criminals 
released by ICE nationwide, from 2012 to 2016, was 83 percent. 
I mean, is that right?
    That is an enormous figure because, from my perspective, 
you know, the first purpose of the Federal Government is to 
defend and protect its citizens, and that seems like prima 
facie evidence that we are failing at least in this area, even 
if the effort is sincere. If 83 percent of those that we are 
releasing from 2012 to 2016 were felons, that is a big deal, 
and I do not know about the 30 percent recidivism. Do you think 
that is approximately correct, the 30 percent recidivism?
    Ms. Saldana. I have not done the math, sir, but if you 
have, I am not going to quibble with you.
    Mr. Franks. Well, you know, I will not press the point, but 
if 83 percent of those that we are releasing are convicted 
felons, then there is something desperately wrong in the system 
somewhere. And I guess, you know, just in the re-offenses, we 
are showing statistics of around 130 murders or attempted 
murders since 2010, and according to a letter ICE provided in 
February to Senator Chuck Grassley, Chairman of the Senate 
Judiciary Committee, that is their number, but ICE has insisted 
that reoffenders were isolated examples, and these are not 
isolated examples.
    These murders and these numbers are staggering, and I guess 
the next question that occurs is, what is ICE specifically 
doing now to prevent the release of these serious criminals 
onto America's streets?
    Ms. Saldana. As I mentioned earlier, sir, I share the same 
concern as you did. When I first arrived in this job, back now 
almost 2 years ago, this was of great concern to me. We need to 
be very careful in those releases. Setting aside the fact that 
about two-thirds of those releases are required upon us by 
either courts or the Zadvydas decision, I have a committee at 
headquarters that reviews these criminal releases to make sure 
that the field office directors and supervisors in the field 
have taken to account, very carefully, all the facts and 
circumstances of that case and have made a decision based on 
facts, not feelings, but based on facts that that person does 
not present a threat to the community.
    So mixed into the numbers that you are talking about are 
some of these people. Well, two-thirds of them, who are not 
being released by ICE. I assure you, no one at Homeland 
Security or at ICE takes the release of someone with a criminal 
conviction more seriously than we do.
    Mr. Franks. Well, but the original question is, what are we 
doing now to ameliorate the fact that 83 percent of the people 
we are releasing are felons, and probably 30 percent of them 
are recommitting? I mean, I know you probably just do not know.
    Ms. Saldana. No, I do know. We have given specific training 
and instruction to the field of things to look for with respect 
to any decision on a release. That is discretionary. It is 
based on the entire file. It is not based on a feeling that 
someone is good or bad. It is based on the file and the facts 
and circumstances. Once that decision is made locally, we 
review the decision at headquarters to make sure that it is a 
well-reasoned decision and not just based on someone who has 
been careless. And as I said earlier, sir, I fall on my sword 
where we have not used our best judgment and discretion. I wish 
we were 100 percent perfect in the regard.
    Mr. Franks. No, I understand. I understand. It sounds like 
you are making an effort, but there is still, you know, 130 
people, Americans, who have died because we made the wrong 
decision there.
    Let me quickly shift gears. About 140 Nations refuse to 
take back at least some of the citizens that come over here, 
and I think we have gotten a letter from, is it Gambia that we 
are sending a letter to that they--100 percent of them? Are 
there any others besides Gambia? I mean, is that the extent of 
our commitment there?
    Are we sending letters to any other country and saying, if 
your people come here and break our laws or cross our borders 
illegally, we are going to send them back, or we are going to 
stop giving you visas? Is there any other country besides 
Gambia that we are doing that?
    Ms. Saldana. Well, the one we are talking about Gambia is 
where the Secretary actually communicates with the Secretary of 
State to----
    Mr. Franks. But are there any other countries besides them 
that we are making motions in?
    Ms. Saldana. Speaking of letters, I have sent about 126 
myself to countries. I have met with ambassadors of those 
countries. I have met with our ambassadors in those countries 
to try to do what we can to change their minds because these 
are obligations under world treaties. So we are doing our best 
to bring those people around.
    Mr. Franks. Well, Mr. Chairman, my time is up, but I would 
just suggest to you they do not need to change their mind. We 
need to change our mind and say, if you do not take these back, 
we will not offer visas in the future. It is a pretty simple 
equation. Thank you. Thank you.
    Mr. Goodlatte. The gentleman from Arizona yields back. The 
Chair will not recognize the gentlelady from Washington, Ms. 
DelBene.
    Ms. DelBene. Thank you, Mr. Chair, and Director Saldana, 
thank you for being with us today. It has been reported that 
draft rules are being considered that would create national 
uniformity for immigration judges to allow child immigrants 
more time to obtain legal representation.
    And in light of the ninth circuit's decision or opinion 
this week, I think these rules would be a highly welcomed step 
toward ensuring fair treatment for the most vulnerable 
individuals who are seeking refuge across our borders. So I 
wondered if you could share with the Committee your office's 
involvement in the discussions on those rules, if any, and as 
the agency that is responsible for carrying out removals 
following legal proceedings, do you have any comment on this 
issue?
    Ms. Saldana. Those rules you are talking about would bind 
the immigration courts, and those come under the Department of 
Justice, not the Department of Homeland Security. The 
immigration courts are under the Department of Justice. I am 
sure, at some point, if they are being considered now, that we 
may well be consulted. Quite frankly, I may not wait to be 
consulted. We may reach out and see if we can have some input, 
but that would be a decision by the Department of Justice and, 
ultimately, by the courts as to whether it is sufficient.
    Ms. DelBene. Well, in a concurring opinion in the ninth 
circuit case, two judges, one a Republican appointee and one a 
Democratic appointee, came together and they said, ``What is 
missing here, money and resolve, political solutions that fall 
outside the purview of the courts.''
    So in other words, what is missing here is congressional 
action and the political will to ensure that young children 
fleeing violence are not facing the complexities of our 
immigration procedures alone.
    The law requires fair hearings, and I would say that 3-
year-olds who are alone before judges is not fair. So Director, 
what do you think is needed to help ensure that we are treating 
children, who come to our immigration judges in a manner that 
reflects at least the most basic notions of justice and due 
process, what do you think we should be doing to make sure that 
we are making sure those children's rights are protected.
    Ms. Saldana. I just, 2 weeks ago, was in Guatemala, 
Honduras, and El Salvador, and I saw and met several of those 
children, families, mothers, children, adult men. It is an 
important, significant issue. I am glad to hear that there are 
some rules that are being considered.
    I agree with you that a 3-year-old cannot be expected to 
know what their rights and privileges are, but again, we will 
reach out to see if we can be consulted about this, but in the 
end, it is the Department of Justice, and that is my old 
department, so I know that they will take good care of 
promulgating something fair and correct.
    Ms. DelBene. Do you think that Congress has a role to play 
on this issue? So what would you recommend?
    Ms. Saldana. I have been preaching since almost the day I 
arrived that we need comprehensive immigration reform. We 
cannot just be dealing with one issue or the other, and this 
should be toward the top of the list, how children's rights are 
vindicated and represented; it should be a part of a 
comprehensive immigration reform package I believe.
    Ms. DelBene. And I just want to highlight that over 7,000 
children have been deported, who have come from Central 
America, largely due to notification problems, lack of 
representation, difficulties navigating the process, and so we 
have impacted many, many children already. Does getting this 
right have an impact on the ability of ICE to properly carry 
out its mission?
    Ms. Saldana. Sure. I just want to be sure that I am clear 
on this. You know, our whole involvement with unaccompanied 
children is to process their entry into the country and then 
turn them over to the Department of Health and Human Services, 
who looks after their needs and where they are while their 
cases are being heard.
    So it is a fairly minor role with respect to children, but 
obviously we have concerns and heart, and we believe that we 
need to have their issues treated differently and sensitively 
because of their age, but we have very little involvement with 
underage children.
    Ms. DelBene. Again, the law requires fair hearings, and I 
want to make sure that we have fair hearings for young children 
who are seeking refuge across our border, so thank you, and my 
time is expired. I yield back, Mr. Chair.
    Mr. Goodlatte. The gentlelady from Washington yields back. 
The Chair will now recognize the gentleman from Texas, the 
former U.S. Attorney, Mr. Ratcliffe.
    Ms. Ratcliffe. Thank you, Chairman, Director Saldana. It is 
good to see you. I appreciate you being with us this morning, 
and I appreciate the candor of your testimony. That is not 
something that we always get in front of this Committee from 
some of the Administration officials that have been here.
    I want to start out by asking you about a specific 
immigration case that tragically impacted a family in my 
Northeast Texas District at the hands of a man who was, for at 
least the second time, in this country illegally. Back in 
April, a van driven by that man, Margarito Quintero, swerved 
from his lane into the opposite lane and drove a car being 
driven by 42-year-old man by the name of Peter Hacking, who was 
a fire captain from Wiley, Texas. In the car with Mr. Hacking 
was his 4-year-old daughter, Ellie, and his 2-year-old son, 
Grayson. All three of them were killed.
    Now, Mr. Quintero is a Mexican citizen who entered the 
United States illegally the first time that we know in 2006, 
where he was subsequently arrested and deported in 2008. And I 
do not know how many times he reentered the country illegally, 
but we know he was back for at least a second time in 2016 and 
obviously with tragic consequences.
    Now, I want to start out and go on record to thank you, 
Director, for being responsive personally. When I called your 
office immediately after the incident, I did not expect to get 
a callback directly from you, and I received one. And what you 
told me during the phone call about what ICE was going to do, 
was able to provide the Hacking family with a small, but I 
think very important, token of assurance that justice would not 
be ignored. So I am grateful to you, and I know the Hacking 
family is as well, and I want to go on record to that point.
    I think the fact that I felt compelled to urgently pick up 
the phone and call you really speaks to the larger problem. I 
felt compelled to do that because I was aware of a similar 
accident in Nebraska that resulted in an illegal alien posting 
bail and then fleeing the country because ICE had declined, in 
that case, to issue a detainer.
    So I was really acting out of fear, and I am sure you can 
understand why I was not about to let that happened to one of 
my constituents. So again, I want to thank you for issuing the 
detainer, so that we know that, if Mr. Quintero is somehow 
released from local custody, we have the comfort of knowing 
that he will go into Federal custody.
    But let me ask about the specific case, if you can provide 
me an update, because Mr. Quintero has been charged with three 
counts of manslaughter by the Collin County D.A. and is 
awaiting trial on those charges, but can you provide me and the 
Hackings' family and my constituents some assurance that Mr. 
Quintero will also face Federal charges for illegal reentry?
    Ms. Saldana. Yes, and thank you for your kind remarks, 
Congressman. As I told you, I made a commitment regarding Mr. 
Quintero. He is from my State of Texas as well. The accident 
occurred in my State of Texas, and the victims were from Texas. 
We have a detainer on him. That means that we will be hearing, 
and we have no problems from Collin County. You are very 
familiar with the area with respect to cooperation on those 
detainers. We will keep an eye out on the trial, and hopefully, 
we will get a long sentence, and then after that sentence, we 
will retain custody. We will obtain custody and proceed further 
there.
    Ms. Ratcliffe. Thank you, Director. I guess as a side note, 
it is an issue outside of your jurisdiction, but I would, for 
the record, say that this really speaks to the larger issue 
that my constituents really care about, which is border 
security. To that point, even if you are perfect in your job, 
with respect to the enforcement of our immigration laws, if 
someone like Mr. Quintero can, after removal from our country, 
simply walk back and forth across an imaginary line and commit 
more crimes, then I think we are doing the American people are 
grave disservice.
    But having said that, Director, an issue where you do have 
jurisdiction and can play a role in addressing situations like 
this that are frankly happening far too often is with respect 
to the 287(g) program. And so if county and local jurisdictions 
want to participate in the ICE 287(g) program to assist ICE in 
enforcing our immigration laws, why is ICE not leaping at the 
chance to do that? And the reason I say that is I know there 
are at least 10 jurisdictions where applications to be part of 
that have been pending with ICE for number of years.
    Ms. Saldana. Well, since I have been board, we have 
reviewed the requests of jurisdictions who have indicated an 
interest in 287(g). I have signed several letters approvingly 
the expansion of 287(g) to several jurisdictions, including 
some in Texas. So we are open for business with respect to 
that. We do look carefully at the jurisdiction, make sure that 
they understand what their role is, what our role is, but we 
will accept those requests and review them, and then, to the 
extent that they would be appropriate partners with us, under 
our requirements under 287(g), we will engage them.
    Ms. Ratcliffe. Okay, so can I take it, then, from your 
testimony that the backlog that is there, as I understand it, 
is maybe due to manpower, as opposed to----
    Ms. Saldana. No, actually, I can pretty much assure you--we 
can talk about specific jurisdictions as a follow up to the 
hearing, sir, but I can assure you that since I have been on 
board, we have been back to anybody who indicated an interest 
in 287(g) to inquire whether they still had that interest. Some 
of them do not, so we cannot do anything about that, but with 
respect to those who have, once they pass our requirements, we 
certainly will take a look at them to become our partners in 
that program.
    Mr. Ratcliffe. Great. Well, I am glad to hear that. Thanks, 
Director.
    Ms. Saldana. Thank you.
    Mr. Ratcliffe. I will yield back.
    Mr. Goodlatte. The gentleman from Texas yields back. The 
Chair will now recognize the gentleman from Rhode Island, Mr. 
Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. Thank you, 
Director, for being here. Director, in your written testimony, 
you reference ICE's investigative efforts relating to 
individuals who are either seeking admission or engaged in 
immigration proceedings, with respect to the issue of human 
rights abuses and that you screen for human rights abuses. And 
I am working on a piece of legislation that will give the 
Department of Justice the authority to prosecute human rights 
abusers who commit crimes against humanity if they end up in 
the jurisdiction of the United States. So could you tell me 
what that screening process that you described looks like, what 
you do to prevent those who have committed human rights abuses 
from entering the United States?
    Ms. Saldana. Well, we have a tremendous network of visa 
security posts, where somebody is trying to come in on a non-
immigrant visa. And that is one of the issues that is top at 
our list of things to consider. I have a unit within the Office 
of the Principal Legal Advisor, our lawyers, specifically 
focused and dedicated to the identification and apprehension 
and prosecution of human rights violators.
    I would love for you to meet them, especially if you are 
working on this legislation; they are rabid about their work 
and very committed to making sure we are bringing these folks 
to justice. But that is very much a part of what our 
communications are with foreign governments. We are in 46 
countries across the world, represented through our attache 
network, in getting information from local governments that 
they can offer us as we are making these reviews for visa 
security purposes and for just generally admission into the 
United States.
    Mr. Cicilline. And I would very much welcome the 
opportunity to meet with that unit----
    Ms. Saldana. Good.
    Mr. Cicilline [continuing]. Because I think it would be 
very helpful. The second thing I want to ask you about is first 
to extend a thank you to you for the work that the Department 
of Homeland Security and ICE has done for kind of taking a 
deeper look into how LGBT immigrants face particular challenges 
in the detention process and for issuing guidelines on how to 
address and deal with LGBT individuals in detention, but, of 
course, as you know, guidelines are only as good at the people 
who enforce them.
    Would you tell us a little bit about what efforts are 
taking place to enforce and enhance the guidelines for LGBT 
individuals in ICE custody? And what training and instruction 
is underway for ICE officers with respect to this community?
    Ms. Saldana. We have a policy group that has been involved 
in looking at that guidance. Any time we issue guidance like 
that, we make sure that everyone who touches those cases where 
there might be a concern that someone is detained and they 
might be subjected to abuse, that we look at those cases and 
make sure that people understand what our guidance is, that we 
must be sensitive to these issues, that we must look through 
the appropriate environment to place these folks.
    We must talk to the individuals themselves to see what 
their interests are. And, so, we train consistently on that 
subject, and we have input from the communities themselves into 
what we can do better with respect to that. You know, this is 
not an issue that we have dealt with a lot, I can say, but it 
is a very serious one in our view.
    Mr. Cicilline. I think we all remember, Director, that 
story from the summer of 2014 when we were receiving a large 
number of unaccompanied minors across our southern border. I 
know, at that time, the Department of Homeland Security put 
into place policies, particularly to deal with unaccompanied 
minors. Can you just tell us what those policies are today? Are 
we ensuring that these young children who have experienced 
sometimes unspeakable trauma in their travels to the U.S. or 
are facing abuse or violence if they are returned home, are 
they getting the help that they need with ICE?
    I know some of this is not within your jurisdiction, but do 
they have access to counseling, to translation services, to 
council? And I recognize, as I said, some of this is not within 
your jurisdiction, but to the extent that you could inform us 
to the best of your knowledge, what is happening to these 
children who are without parents when they are coming?
    Ms. Saldana. Well, both our sister agencies, CBP Customs 
and Border Protection, which may be the first point on this 
when they see them at the borders or ports of entry, and our 
agents are trained in dealing with these young people, these 
children, babies, in many cases, for the limited time that we 
have some involvement with them.
    As I said earlier, our involvement, basically, after that 
is to turn them over to the Department of Health and Human 
Services. I know, because I have had a couple of conversations 
with the folks there, that they work very hard to train their 
own people because, in the end, they are responsible for their 
well-being until their cases are determined. But I am happy to 
certainly pass your inquiry along to them, so they can provide 
you some more fulsome explanation because I am not personally 
familiar with everything they do there.
    Mr. Cicilline. I would thank you for that, Director, and I 
yield back.
    Mr. Goodlatte. The gentleman yields back. The Chair will 
now recognize the gentleman from Utah, Mr. Chaffetz.
    Mr. Chaffetz. I thank the gentleman, and Director, thank 
you so much for being here. I appreciate it. It was March 18th 
of last year that you appeared before the Oversight Committee, 
and you admitted that in fiscal year 2014 ICE had released some 
30,000 aliens with criminal convictions. And then in fiscal 
year 2013, 36,007 criminal aliens were released.
    And then in 2015, ICE released some 19,723 criminal aliens. 
As of February 11th of this year, 124 illegal immigrant 
criminals released from detention since 2010 have subsequently 
been charged with homicide. Two had homicide-related 
convictions before they were released for the first time.
    So the question here is one of the rate of recidivism. Do 
you have any updated stats or perspective on the rate of 
recidivism of the criminal aliens that you are releasing back 
into the public?
    Ms. Saldana. You know, we have looked at that, and I know I 
have had some information that relates to that, sir, but I do 
not recall it just off the top of my mind. May I provide that 
to you?
    Mr. Chaffetz. Yeah, and I understand it is hard to recite 
all of these statistics, you know, impromptu over a several-
hour hearing, but could you provide us, what is a reasonable 
time to get back to us on that? Pick the date.
    Ms. Saldana. Someone is going to kick me. I am pretty 
sure----
    Mr. Chaffetz. I am happy to do that if you would like.
    Ms. Saldana. I am pretty sure that, within the month, we 
can get it to you. I am going to get it to you as quickly as I 
can.
    Mr. Chaffetz. Can we say by the end of the month? Can we 
shoot for that?
    Ms. Saldana. This month?
    Mr. Chaffetz. Yes.
    Ms. Saldana. I do not think so.
    Mr. Chaffetz. No? Okay.
    Ms. Saldana. It is 8 days away.
    Mr. Chaffetz. I do not know why it would take a month, 
but----
    Ms. Saldana. At the outside, sir----
    Mr. Chaffetz [continuing]. Two weeks, is that----
    Ms. Saldana. I will get it to you as soon as I can.
    Mr. Chaffetz. All right. And this is of prime concern, is 
people that are here illegally and they commit a crime, they 
get convicted of that crime; they may or may not serve time, 
but the concern is that we release them back out into the 
public, as opposed to deporting them. So last time we were 
together, in our Oversight hearing, we talked about the 
ability--it is what Mr. Franks was, in part, talking about. If 
these countries to accept those, what countries are not 
accepting the deportation of criminal aliens?
    Ms. Saldana. We have a list of 23 countries that we refer 
to as recalcitrant; we just compiled that list recently because 
we want to keep a record of those that are not working with us.
    Mr. Chaffetz. Can I get a copy of that?
    Ms. Saldana. Absolutely. And then we have a longer list, 
with respect to those that are not particularly cooperative, 
that we have difficulty. While we may honor some, maybe they do 
not take others back. So we certainly can provide that to you, 
sir.
    Mr. Chaffetz. Well, as you know, since last year, there are 
provisions in the law that the State Department must act on. 
And the frustration is that the State Department has been 
empowered by the United States Congress, in fact directed by 
the Congress, to not allow them to grant visas from those 
countries, so why should we be issuing visas in a country to 
come to the United States when we are taking our criminal 
aliens and saying, ``Look, this person is here illegally; they 
are from your country; you should go back?''
    So where are we at in that process? If you have 23, what 
has been shared with the Secretary of Homeland Security? And, 
consequently, what has gone on to the Secretary of State for 
action under the law?
    Ms. Saldana. I am very pleased with the fact that the Chief 
of the Bureau of Consular Affairs, the individual who worries 
about all her consulates and embassies across the world, I have 
been meeting with her several times, personally, as we go over 
information relating to what can be done with respect to these 
uncooperative countries.
    Mr. Chaffetz. Can you please update us as to where we are 
at in that process? Because you have given the information to 
the Secretary of State, but the Secretary is required under the 
law to act on that. But I need exposure as to what has been 
given to the Secretary of State, where in the food chain we are 
breaking down, because we need action taken on some of these 
countries. I really do believe that, if some of these countries 
faced a consequence, the other countries might sit up and, you 
know, pay attention.
    So I have got to hit on more thing, and I have got only 3 
minutes left of my time here. We have been given this document; 
it is the lack of identity documents in the refugee process, 
from Homeland Security. Again, I do not mean to play ``got 
you,'' but I would like to know if you are familiar with this 
document and get your reaction to it. There is some very 
troubling aspects to it. I do not know if you are immediately 
familiar with this document. I would like to confirm its 
authenticity with you. But I need to understand if this is 
something that you are familiar with.
    Mr. Goodlatte. The gentleman is out of time, but you may 
answer the question, Director.
    Ms. Saldana. Somebody just handed me a document. I presume 
it is the one you are talking about that is entitled----
    Mr. Chaffetz. Yes, yes.
    Ms. Saldana. I have never seen this document before. I do 
not know how long you have had it. But I----
    Mr. Chaffetz. I have not had it very long. Mr. Chairman, I 
just hope that if the Director could get back to us about its 
authenticity and any comments, particularly the first two 
sentences of the second paragraph are extremely concerning to 
us. Thank the Chairman for his indulgence.
    Mr. Goodlatte. The gentleman from Utah yields back. The 
Chair will now recognize the gentleman from California, Mr. 
Peters.
    Mr. Peters. Thank you, Mr. Chairman. I would like to begin 
by asking a unanimous consent to enter into the record two 
articles dated the 21st and 22nd of September from San Diego 
Union Tribune that highlight the urgency of the situation 
facing Haitian entrants in San Diego.
    Mr. Goodlatte. Without objection.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
   
    
                               __________
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               
                               
                               
                               __________
    Mr. Peters. Thank you, Madam Director, for being here. I 
had some questions on that topic. Since 2010, Haitian entrants 
have been given a special refugee status when attempting to 
enter the U.S. Just this morning, Secretary Johnson announced 
that he, yesterday, directed that enforcement decisions with 
respect to Haitian nationals should be consistent, standard 
practice guided by him memorandum dated November 20, 2014.
    The justification for this change in policy seems to be 
rooted in ``sufficient improvements'' to the situation in 
Haiti. However, my understanding is that the position of the 
Haiti Government is that they do not have the ability or 
capacity to accept the return of these individuals. So can you 
please elaborate on the justification for this change in policy 
toward Haitian entrants?
    Ms. Saldana. Yes, that was announced by press release, I 
think, by the Secretary today. And he cited in there two 
reasons for this. One was the changed conditions, as he has 
perceived based on all of the facts and information that was 
available to him since that terrible disaster in 2010. You 
know, at one point, beginning then, the then Secretary of 
Homeland Security stopped deportations of Haitians. They let up 
a little bit on it a year or two later, but since then, it 
culminated in today's announcement.
    The other aspect of it is the number of Haitians that are 
at our borders seeking entrance; treating them the same as 
everyone else will still afford them, Congressman, rights that 
are provided by statute, with respect to asylum and refugee 
status. They will be looked at in terms of their claims; 
probably immigration courts will make a final determination. 
But it does not take away or strip those rights; they will 
still have them.
    Mr. Peters. Do you think ICE has the funding and capacity 
necessary to detain and process the Haitian migrants currently 
waiting at the southern border?
    Ms. Saldana. Those and the other increased numbers of 
families from Central America are really taxing our resources.
    Mr. Peters. So in San Diego, we have welcomed about 4,000 
Haitian entrants. And the community has stepped up to 
accommodate the individuals. Are you aware of assistance that 
is available to our community to help with the temporary 
housing of folks like this?
    Ms. Saldana. Well, I will tell you who has always stepped 
up in this regard is religious organizations. I am just so 
impressed by, both on the border that I have visited myself, 
personally, and also in San Isidro and San Diego that I have 
been to personally, also; these organizations step up to help, 
and I know that we will advise and work with organizations to 
assist with respect to some humanitarian aid that can be made 
available to those people that need it.
    Mr. Peters. Do you have any sense of what kind of increase 
in your budget would be necessary to provide the assistance we 
need at the border and in housing people like this?
    Ms. Saldana. I really do not know, sir. I have not studied 
it to that extent. I certainly can converse with you more 
later.
    Mr. Peters. Can you get back to me on that?
    Ms. Saldana. When I study on that, yes.
    Mr. Peters. Finally, just to raise the issue with respect 
to Zika, we have people migrating from and through areas known 
to be home to Zika, active Zika zones. Obviously, the community 
and the Nation has to make sure that these people get access to 
care as quickly as possible. And, obviously, Congress has to do 
its part.
    I am optimistic we will do something about that soon. But 
it takes an average of 4 weeks for these entrants to receive 
benefits. Do you have any plans, assuming sufficient timing, to 
accelerate that time line in light of the public health 
concerns about Zika transmission? So in other words, the 4 
weeks it takes to get benefits?
    Ms. Saldana. Immigrations and Customs Enforcement?
    Mr. Peters. In general, taking people who are coming 
through areas with active Zika problems.
    Ms. Saldana. Yes, I know that there is medical screening 
that is done both by CBP, our sister agency, and ourselves. 
With respect to the bigger picture on the overall public health 
concern, I wish I could help you on that, Congressman, but I 
really am not familiar with all that.
    Mr. Peters. Do you have any suggestions for us in how we 
would reduce that 4-week timeline between when people ask for 
help and get it concerning Zika?
    Ms. Saldana. I can certainly give that some thinking and 
studying. I am afraid that is another issue that I just cannot 
give you more information on that is informative in any way.
    Mr. Peters. Well, I am out of time. I appreciate your being 
here today. And, Mr. Chairman, I yield back.
    Ms. Saldana. Thank you.
    Mr. Goodlatte. The gentleman from California yields back. 
The Chair will now recognize the gentleman from Texas, Mr. 
Gohmert.
    Mr. Gohmert. Director Saldana, it is good to have you here. 
First, let me say, I know in May you suffered what every parent 
I know hopes and prays they never have to endure. And so our 
thoughts and prayers have been with you since we found out 
about that. I know Michael has to leave a tough spot that will 
never be filled. And I know that it has got to be tough to 
continue on, but we appreciate your continuing to do what you 
can.
    Ms. Saldana. Thank you, Congressman. I appreciate that.
    Mr. Gohmert. Yeah. So that is something every parent, I 
know, shares. But I wanted to share with you about an 
experience I had earlier this year down on the border in the 
McAllen Sector that had taken over, as I understand, being the 
busiest. And, of course, you are aware that is a wider area of 
the Rio Grande.
    I hear people talk about areas where you can walk across. 
And, obviously, that is not one of them. You do not make it 
across unless you have got help, and normally, it is in one of 
the rafts that coyotes are bringing across. But, as I am sure 
you are aware, the State of Texas had appropriated millions of 
dollars; they have got four boats down there on that section of 
the Rio Grande; and those boats are extremely well-equipped. 
And in all the nights I have spent on the border down there, 
one, some months back, was on the fast boat that Texas DPS had, 
has the thermal technology. We had night vision, so we were 
able to use the night vision, but the thermal technology was 
just amazing.
    And as we went down the river, and we would spot people 
when it is 2:00, 3 in the morning, when people are gathering up 
along the edge of the river behind trees, bushes, and other 
things, you know they are probably going to try to cross. And 
we know that there were Homeland Security employees along the 
way, some Border Patrol.
    And when we would see somebody, like, okay, there was two, 
maybe three, looks like they are carrying something. They are 
squatting, looks like they are trying to bring something in, 
not people. And that is communicated to Homeland Security 
personnel. And there was balloons down there they would send 
up, and they could focus in and use the technology, and 
generally, we would get the response back, ``Yes, we have those 
individuals spotted.''
    Go further down the river, and there was 16, 17, maybe 18 
people. They are not carrying anything. Looks like they are 
just going to try to come across. And as we spotted things, 
that was conveyed to Homeland Security personnel. And the 
balloons, the cameras would zoom, and they would find who we 
had reported. We went down to a bend in the river and turned 
off the engine and waited for a long period of time.
    And then the Federal employees finally communicated, 
``Look, these people are still continuing to stay right where 
they are. They know you turned off your engine. They know you 
are down there somewhere where you could get back to them 
before they cross. So why do you not go on back to your dock, 
and we will intervene when they try to cross?'' And so they 
asked, is that all right with me?
    I said, ``You are the guys in charge.'' So we went back to 
the dock. And as soon as we got back to the dock, we got the 
report that, when they heard our engines going far enough away, 
that the groups that we had seen came across. And they were 
happy to report that they had gotten all of the 18 that came 
across that we had spotted with the thermal and that the people 
that appeared to be brining large amount of drugs in, they had 
not gotten them. They are somewhere on the U.S. side, but they 
got all of those that came in.
    And I said to the Texas DPS, they did not intervene and 
tell them to go back before they got onto American soil? And 
the Texas guy said, ``That is what they do. They let them come 
on to U.S., and then we had got the report they had all been 
successful processed in and with no intention of deporting them 
anytime soon.'' Now, I know there have been around, what, 
160,000 or so that have been turned back that are being counted 
as apprehensions and deportations. But are you aware of ICE 
just taking people that were caught red-handed coming in 
illegally and then just in process, rather than being deported?
    Mr. Goodlatte. The gentleman is out of time, but you may 
answer the question.
    Ms. Saldana. I am. Congressman, I suspect that would have 
been our sister agency, as you said.
    Mr. Gohmert. Under Border Patrol.
    Ms. Saldana. Right. Yeah.
    Mr. Gohmert. But then you had ICE people backing them up. 
You know you have got a lot of ICE folks there.
    Ms. Saldana. Oh, if there were drugs on them and we had our 
hands on them, we would not have let them go.
    Mr. Gohmert. Well, they were never captured. That is the 
point. But, anyway, it is now on your radar, and it really 
needs to be dealt with, and I appreciate the Chairman's 
indulgence. Thank you.
    Mr. Gowdy [presiding]. The gentleman from Texas yields 
back. Director, I want to thank you for your patience this 
morning. I am last. I am going to bounce to a couple of 
different topics. So if it is confusing, it is only because of 
the question.
    So we are going to start with visas and schools. Would it 
be helpful to your student visa fraud enforcement efforts if 
all schools that accept foreign students were required to be 
accredited?
    Ms. Saldana. It makes a difference, sir. Of course. It 
makes a difference to have accredited institutions that will be 
partners with us in our efforts to keep track of students who 
are coming in from foreign countries.
    Mr. Gowdy. How much of an issue has it been, or have you 
seen these kind of visa mills where you bring students here 
with no expectation that they actually pursue and education?
    Ms. Saldana. Well, we had a tremendous case announced that 
was there at the press conference with my former colleague, 
Paul Fishman, the U.S. attorney in New Jersey, where we brought 
down a university that was just an academic mill. I am very 
proud of that work done by our Homeland Security investigation 
agents, who had an elaborate undercover operation going on and 
there were multiple, 18, 19, for some reason, is coming to 
mind, of people that were involved in that. It is a matter we 
take great interest in and focus our investigations on.
    Mr. Gowdy. I want to ask you about two reports and then you 
can tell me whether the reporting is accurate and, if so, if 
there is an explanation what that may be. There is a report 
that you have asked for less money for alien detention and less 
money for fugitive operations. Is it true that your request was 
for less money? And if so, why?
    Ms. Saldana. My request?
    Mr. Gowdy. Yes, ma'am.
    Ms. Saldana. I think the Department of Homeland Security 
submits a broad request for all agencies. Obviously, they 
consult with all of us. But I would not have asked for less 
money in those areas.
    Mr. Gowdy. Okay. There is another report that, at least in 
previous years, occasionally, ICE attorneys would not appear 
for hearings in front of judges. And that probably strikes you 
and I as being unusual, that the government attorney would not 
be there. Have you heard that? Was it a practice? Is it still a 
practice?
    Ms. Saldana. That is an issue that I am sure would have 
come to my attention if it were in any way systemic. Has one 
missed a hearing here or there? You know, I would not be 
apprised to that. But I assure you that I have met so many of 
these attorneys, I cannot imagine that being a practice and a 
report that is really valid. I am not familiar with the report 
you are talking about, but our lawyers would not just ignore a 
court setting.
    Mr. Gowdy. Well, that is why I ask. And I will make no 
presumptions as to the validity of that report. But if you 
could have someone, not yourself, but just somebody check to 
see whether or not that is currently an issue or was an issue 
in the past. It is hard for me to understand how the government 
could be represented if the attorney does not show up. But you 
would have that same feeling because you had the same job. So 
last two issues: sanctuary Cities.
    When I go back home, and I suppose it is true for Johnny in 
Texas, it is really hard for the people we represent to 
understand, particularly in light of what they perceive to be a 
Federal Government that is willing to get involved in certain 
State and local issues, not being as animated about 
jurisdictions; they consider themselves sanctuary cities. So I 
heard you say you are working on it. Other than the power of 
persuasion, which may or may not work, what tools do you need 
to be able to get local jurisdictions to cooperate?
    Ms. Saldana. I am going to have to tout our success, 
though, Congressman, with respect to the 17 of the 25 that I 
targeted. The 25 that have the most impact on our declined 
detainers. We have 17 working in a very robust manner with us. 
So the Secretary did something right in his communications with 
local law enforcement in different places that he went to as 
the deputy and myself personally did.
    But I believe our message is getting through. I think that 
is an indication of our message getting through, that there are 
real problems, not the least of which is the safety of our 
officers who are going out there to make apprehensions because 
we could not get the cooperation of a local jail to turn over 
folks. But we continue in our work.
    I think there are some communities that I am just not sure 
we are ever going to get to the point we need to get to, but we 
are going to keep trying, all of us. I have that specific 
instruction from the Secretary.
    Mr. Gowdy. All right. Last question. Zadvydas, there are 
not that many things on Capitol Hill that are bipartisan, but 
dealing with the decision in Zadvydas would be one of them. I 
have had a number of my friends on the other side of the aisle 
have constituents impacted by that Supreme Court decision.
    What can we do or what can you and I and you and Congress 
do together? It is impossible to explain to constituents why, 
in some instances, countries who benefit from foreign aid from 
us will not accept their foreign nationals back. It is just 
hard to explain that. So what do we need to do to get the State 
Department more fully engaged, so it is not you and me 
answering the question? Because it is really up to them. So 
what can Congress do about Zadvydas?
    Ms. Saldana. I see two different issues here. One is the 
work with the countries that are not taking their people back, 
and the other one is the decision that compels us to release 
people. Sir, I have read that decision; I do not know if you 
have. It is very legal in nature, but the bottom line there is 
the constitutional concerns of holding somebody indefinitely 
when there is little chance that we are going to be able to 
return them to their countries.
    You are right; none of our people like doing that. And it 
hurts us in our heart of hearts that that is the deal. But I am 
happy to consider, and work with you, any options that you have 
with respect to those countries, I am working diligently with 
Michelle Bond, the Chief of Consular Affairs. She has really 
taken a personal interest and made a commitment to me that we 
are going to take a look at each one of these countries and do 
what we can.
    The world is a complicated place, as you know, and I would 
not put myself in the shoes of the Department of State to know 
all the ramifications of a sanctions decision, for example, 
against a country with whom our relationship is complex, to say 
the least. And I do not know all of those ramifications. All I 
know is that I have a difficult problem to deal with, and she 
is working with me at Department of State to try to get to a 
better place than we are today.
    Mr. Gowdy. Well, with the indulgence of my friend from 
California, because this is a bipartisan issue, Congresswoman 
Lofgren and I have discussed it; Congressman Courtney has an 
issue, Congressman Welch on the other side of the aisle. What 
is the dominant explanation given from countries who will not 
accept their nationals? What is their excuse for not doing so?
    Ms. Saldana. Quite frankly, in many instances, there is no 
explanation. Some of the factors are instability of a country. 
I mean, what do we do with Syrians, you know, returning them to 
the country? That country is in the throes of terrible turmoil.
    So, often, it is instability; it is a claim that our proof 
of citizenship is not sufficient, even though we believe it is. 
It is the lack of records and the lack of records kept by 
certain governments that they just do not value recordkeeping 
the way we do, and so establishing citizenship becomes a 
problem. It is a varied picture of things that are brought up 
to us as to why they will not accept their people back.
    Mr. Gowdy. All right. I would ask my friend from California 
if he had any concluding remarks. We want to, on behalf of all 
of us, thank you for your service and for your testimony today. 
And these Members will have 5 legislative days to submit 
questions to the record. And with that, we thank you for your 
time.
    Ms. Saldana. Thank you.
    [Whereupon, at 12:36 p.m., the Committee adjourned subject 
to the call of the Chair.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  Questions for the Record submitted to the Honorable Sarah Saldana, 
   Director, U.S. Immigration and Customs Enforcement, Department of 
                           Homeland Security*
---------------------------------------------------------------------------
    *Note: The Committee did not receive a response from this witness 
at the time this hearing record was finalized and printed.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
